<html>
<title> - HIRING HEROES: JOB CREATION FOR VETERANS AND GUARD/RESERVE MEMBERS</title>
<body><pre>[House Hearing, 112 Congress]
[From the U.S. Government Publishing Office]



 
                    HIRING HEROES: JOB CREATION FOR
                  VETERANS AND GUARD/RESERVE MEMBERS

=======================================================================

                             FIELD HEARING

                               before the

                  SUBCOMMITTEE ON ECONOMIC OPPORTUNITY

                                 of the

                     COMMITTEE ON VETERANS' AFFAIRS
                     U.S. HOUSE OF REPRESENTATIVES

                      ONE HUNDRED TWELFTH CONGRESS

                             FIRST SESSION

                               __________

                            OCTOBER 17, 2011

                   FIELD HEARING HELD IN WATERLOO, IA

                               __________

                           Serial No. 112-32

                               __________

       Printed for the use of the Committee on Veterans' Affairs




                  U.S. GOVERNMENT PRINTING OFFICE
71-384                    WASHINGTON : 2012
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, U.S. Government Printing Office. Phone 202�09512�091800, or 866�09512�091800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="abccdbc4ebc8ded8dfc3cec7db85c8c4c685">[email&#160;protected]</a>  

                     COMMITTEE ON VETERANS' AFFAIRS

                     JEFF MILLER, Florida, Chairman

CLIFF STEARNS, Florida               BOB FILNER, California, Ranking
DOUG LAMBORN, Colorado               CORRINE BROWN, Florida
GUS M. BILIRAKIS, Florida            SILVESTRE REYES, Texas
DAVID P. ROE, Tennessee              MICHAEL H. MICHAUD, Maine
MARLIN A. STUTZMAN, Indiana          LINDA T. SANCHEZ, California
BILL FLORES, Texas                   BRUCE L. BRALEY, Iowa
BILL JOHNSON, Ohio                   JERRY McNERNEY, California
JEFF DENHAM, California              JOE DONNELLY, Indiana
JON RUNYAN, New Jersey               TIMOTHY J. WALZ, Minnesota
DAN BENISHEK, Michigan               JOHN BARROW, Georgia
ANN MARIE BUERKLE, New York          RUSS CARNAHAN, Missouri
TIM HUELSKAMP, Kansas
MARK E. AMODEI, Nevada
ROBERT L. TURNER, New York

            Helen W. Tolar, Staff Director and Chief Counsel

                  SUBCOMMITTEE ON ECONOMIC OPPORTUNITY

                 MARLIN A. STUTZMAN, Indiana, Chairman

GUS M. BILIRAKIS, Florida            BRUCE L. BRALEY, Iowa, Ranking
BILL JOHNSON, Ohio                   LINDA T. SANCHEZ, California
TIM HUELSKAMP, Kansas                TIMOTHY J. WALZ, Minnesota
MARK E. AMODEI, Nevada

Pursuant to clause 2(e)(4) of Rule XI of the Rules of the House, public 
hearing records of the Committee on Veterans' Affairs are also 
published in electronic form. The printed hearing record remains the 
official version. Because electronic submissions are used to prepare 
both printed and electronic versions of the hearing record, the process 
of converting between various electronic formats may introduce 
unintentional errors or omissions. Such occurrences are inherent in the 
current publication process and should diminish as the process is 
further refined.


                            C O N T E N T S

                               __________

                            October 17, 2011

                                                                   Page
Hiring Heroes: Job Creation for Veterans and Guard/Reserve.......     1

                           OPENING STATEMENTS

Chairman Marlin A. Stutzman......................................     1
    Prepared statement of Chairman Stutzman......................    41
Hon. Bruce L. Braley, Ranking Democrat Member....................     2
    Prepared statement of Congressman Braley.....................    41

                               WITNESSES

Staff Sergeant Nathaniel Rose, ARNG, North Liberty, IA...........     4
    Prepared statement of Staff Sergeant Rose....................    42
Captain Aaron L. Robinson, ARNG, Des Moines, IA..................     6
    Prepared statement of Captain Robinson.......................    44
Stacy Litchfield, Regional Manager, Talent Acquisition and 
  Performance Consulting, Deere & Company, Inc., Moline, IL......    14
    Prepared statement of Ms. Litchfield.........................    45
MAJ Kerry M. Studer, USA, Assistant Managing Director, Commercial 
  Real Estate Division, Principal Financial Group, Waterloo, IA..    16
    Prepared statement of Major Studer...........................    46
Stacey May, Manager, Tax Credit Program, Honkamp Krueger & Co., 
  P.C., Dubuque, IA..............................................    18
    Prepared statement for Ms. May...............................    50
Timothy J. Carson, Manager, Veterans Initiatives, Office of 
  Diversity, Rockwell Collins, Inc., Cedar Rapids, IA............    19
    Prepared statement for Mr. Carson............................    51
COL Benjamin J. Corell, Commander, 2nd Infantry Brigade Combat 
  Team, 34th Infantry Division, Iowa National Guard, Johnston, IA    27
    Prepared statement for Colonel Corell........................    54
Mark Hennessey, Iowa Committee for Employer Support of the Guard 
  and Reserve, Johnston, IA......................................    30
    Prepared statement for Mr. Hennessey.........................    54
Anthony Smithhart, Iowa State Director, Veterans' Employment and 
  Training Service, U.S. Department of Labor.....................    30
    Prepared statement for Mr. Smithhard.........................    56
Teresa Wahlert, Director, Iowa Workforce Development, Des Moines, 
  IA.............................................................    32
    Prepared statement for Ms. Wahlert...........................    60

                       SUBMISSIONS FOR THE RECORD

RADM T. L. McCreary, USN (Ret.), President, Military.com.........    61
Jennifer J. Suchan, Assistant Registrar and Coordinator, Veterans 
  Student Services, University of Northern Iowa..................    64

                   MATERIAL SUBMITTED FOR THE RECORD

Question for the Record from Chairman Stutzman to Mr. Smithhart..    66


                    HIRING HEROES: JOB CREATION FOR
                  VETERANS AND GUARD/RESERVE MEMBERS

                              ----------                              


                        MONDAY, OCTOBER 17, 2011

             U.S. House of Representatives,
                    Committee on Veterans' Affairs,
                      Subcommittee on Economic Opportunity,
                                                    Washington, DC.
    The Subcommittee met, pursuant to notice, at 10:00 a.m., at 
Waterloo Community Schools' Education Service Center, 1516 
Washington Street, Waterloo, Iowa, Hon. Marlin A. Stutzman 
[Chairman of the Subcommittee] presiding.
    Present: Representatives Stutzman and Braley.

             OPENING STATEMENT OF CHAIRMAN STUTZMAN

    Mr. Stutzman. Good morning. I would like to welcome 
everyone this morning to start this oversight hearing of the 
Subcommittee on Economic Opportunity. I want to welcome every 
one of you this morning. Thanks for being here.
    Delighted to be here in Waterloo. My name is Congressman 
Marlin Stutzman. I am from Indiana, from the Fort Wayne area. 
And so, it is a delight to be here.
    And I want to especially thank your congressman, 
Congressman Braley, for hosting us today and for bringing us 
here to the district.
    I am the chairman of the House Veterans' Affairs 
Subcommittee on Economic Opportunity, and I represent Indiana's 
Third District. And I actually have quite a few Iowa ties. And 
so, I was talking to my parents about the connections here, and 
I actually found out that my great-aunt is actually buried just 
not too far from here in Dunkerton, and my grandparents were 
married in Dubuque as well. And I had some relatives that were 
born here in Iowa, and they made their way back to Indiana.
    So it is a privilege to be here again. My district is very 
similar to Iowa's First Congressional District. We are very 
proud of our Midwestern values and proud of America. So it is a 
privilege to be here with you all. And I know that you are very 
proud of the veterans that you have here, as well as we are in 
northeast Indiana, where we have about 48,000 veterans who 
served our Nation from the Third District.
    It is also a privilege to serve alongside Congressman 
Braley. I call him a friend as well as an advocate for veterans 
issues, as well as a great Member of Congress. And so, thank 
you again for your service.
    We are here today to hear from Iowans about the employment 
difficulties facing far too many members of the Iowa National 
Guard, the Reserves, and those returning from active duty. 
While the unemployment rate for all Iowa veterans in September 
was 5.8 percent, data from the Bureau of Labor Statistics show 
that 35.6 percent of America's Gulf Era II veterans ages 20 to 
24 were unemployed, while 8.8 percent of Gulf Era II veterans 
ages 25 to 54 were unemployed.
    More shocking is information that as much as 30 percent of 
returning members of the Guard and Reserves do not come home to 
a job. Clearly, we need to find ways to reduce all of those 
numbers.
    The House Committee on Veterans' Affairs has taken a first 
step towards that end last week by passing House Resolution 
2433, a bill that would provide up to a year of Chapter 30 GI 
bill benefits to unemployed veterans between the ages of 35 and 
60. The bill now goes to the Senate, and we hope to get the 
bill to the President by Veterans Day, along with several other 
improvements to veterans benefits.
    Again, I am delighted to be here with you today. We are 
anxious to hear from you all who are going to be testifying, 
and at this time, I will yield to the gentleman whose office is 
actually just right next door to mine as well in Washington, a 
good friend, the Honorable Bruce Braley.
    [The prepared statement of Chairman Stutzman appears on p. 
41.]

             OPENING STATEMENT OF HON. BRUCE BRALEY

    Mr. Braley. Well, thank you, Mr. Chairman.
    And welcome home. We are delighted to have you back in 
Iowa.
    And I want to make sure that we welcome everyone to the 
hearing and let you know how important this field hearing is to 
the ongoing work of the Economic Opportunity Subcommittee that 
Chairman Stutzman and I are proud to serve on. Our Subcommittee 
literally is the point line of how we address the important 
challenge of finding work for every veteran who wants to work, 
and it is an issue that we struggle with every day, based upon 
some of the enormous challenges that the Chairman identified.
    I am very proud to welcome all of you to my hometown of 
Waterloo, Iowa, home of the five Sullivan brothers, home of the 
Iowa Veterans Museum, which we are very proud of, and a city 
that knows about sacrifice and service.
    One of the things I tried to do to prepare for this hearing 
is think back on how the challenge of finding work for veterans 
has affected me and my family personally. So one of the things 
I brought to the hearing were my dad's discharge papers from 
the Marine Corps when he came home from Iwo Jima. And it is 
really instructive in how far we have come in dealing with the 
issue of separation of people from the military looking for 
work, and yet how far we have to go.
    My dad was discharged on May 3rd of 1946 from the Marine 
separation center at Great Lakes Naval Training Center in 
Illinois. And on the back of this form, he was required to list 
his employment and nonservice educational data. And I am sure 
that many people in your district in Indiana filled out similar 
forms with similar types of information.
    Under job summary, he wrote ``drove steel-type tractor 
while working, a general farm hand, works with father and 
brother on 240-acre farm, did plowing, cultivating, and 
harvesting of crops and livestock.'' Under preferences for 
additional training, he listed ``college,'' which he never 
pursued. And under job preference, ``farming for self.''
    I think of my dad as a 19-year-old Marine who had never 
worked outside of the home, and what he must have been going 
through as he was preparing to get on that train with a train 
ticket back to Grinnell, Iowa, and probably not much more than 
that to help him face the enormous challenge of an unemployed 
veteran who was looking to make his way in the world.
    We have some Iowa veterans who are going to be testifying 
on our first panel about some of the challenges they are 
facing, and I am very proud of the fact that we have 
implemented much more comprehensive programs to help veterans 
preparing for that transition to the civilian workforce. And, 
some of those programs have been highly successful, but we have 
a long way to go before we reach the objective that we all want 
to happen.
    Because I think that the thing we should be focusing on 
today is on imagining what it would say about our country if 
every veteran who wanted a job had a job. And the bottom line 
for me is the best way to thank a veteran is to hire a veteran. 
And what we are going to focus on at this hearing today is ways 
that we can try to bridge that gap between the civilian 
employment marketplace and the needs of our returning veterans 
who are looking for work and unable to find it at this time.
    So I welcome all of you here. We want to be talking not 
just about how we can put together programs through the 
Department of Defense and the Department of Veterans Affairs, 
but also how we create incentives for employers to look at 
veterans as a hiring opportunity that is going to make their 
workplace a better place for all their employees.
    And that is why I was proud to introduce the Combat 
Veterans Back to Work Act, modeled on the highly successful 
Back to Work Act we had in the civilian workforce that gives 
employers incentives to put an unemployed veteran on their 
payroll and gives them further incentives if they keep them on 
that payroll for up to a year.
    So I welcome all of you. We look forward to the testimony 
of our witnesses, and with that, I will yield back.
    [The prepared statement of Hon. Bruce Braley appears on p. 
41.
    Mr. Stutzman. Thank you, Congressman Braley.
    And one of the things I just want to say quickly before we 
invite the first panel here is that the reason this hearing is 
important to both of us is that with the economy so--the 
difficulties that we are facing in the economy right now, one 
of the areas that we believe success has to happen is with our 
veterans. And so, this really is an opportunity for us to 
highlight to our colleagues back in Washington how we can help 
those who are serving our country, the challenges that they are 
going to be having when we have more veterans coming home from 
Iraq and Afghanistan.
    And if we can have success here, we can hopefully translate 
that into success other places within our economy. But what 
greater place to serve those who have served us in protecting 
our freedom?
    So, with that, we want to invite our first panel to come 
forward to the witness table this morning. We are joined by 
Staff Sergeant Nathan Rose and Captain Aaron Robinson. 
Appreciate your service to our country.
    Thank you for being here, first of all, and we are looking 
forward to your testimony, and we want to give each of you 5 
minutes to share with us your statements. And why don't we 
begin with Staff Sergeant Nathan Rose

STATEMENTS OF STAFF SERGEANT NATHAN ROSE, ARNG, NORTH LIBERTY, 
  IOWA; AND CAPTAIN AARON L. ROBINSON, ARNG, DES MOINES, IOWA

                    STATEMENT OF NATHAN ROSE

    Sergeant Rose. Chairman Stutzman, Ranking Member Braley, 
and Members of the Subcommittee, I would like to extend my 
gratitude for being giving the opportunity to testify at this 
hearing today. It is an honor to lend my voice to fellow 
veterans in the ongoing economic struggles we face.
    My name is Nathaniel Rose. I am currently a staff sergeant 
in the Iowa Army National Guard, as well as a senior at the 
University of Iowa.
    I have been deployed to Iraq, and I have just returned from 
a deployment to Afghanistan in July. To help pay for my 
studies, I currently receive the GI bill, along with State and 
Federal tuition assistance.
    I speak based solely on my experiences in the Iowa Army 
National Guard and experiences of those that have served with 
me. I cannot accurately speak regarding any other branch of 
service or any other State's National Guard.
    I decided to join the National Guard during my freshman 
year of college, looking for adventure, but also for economic 
reasons. I come from a hard-working, middle-class family, and 
if I wanted to attend college, I would have to pay for it 
myself.
    I did not receive many scholarships, and I did not want to 
incur a large amount of student loan debt. So I joined the 
National Guard because the tuition assistance and GI bill would 
pay for my education.
    If it wasn't for tuition assistance and the GI bill, I 
might have quit going to school or not have joined the National 
Guard at all. Joining the military is a very hard decision to 
make, but the benefits one might receive helped make the 
decision easier.
    The GI bill has been one benefit that I have come to 
appreciate more over time. When I first began receiving the 
benefit, it was not a large amount. This was fine because State 
and Federal tuition assistance paid for all my tuition and 
fees, and I could use the GI bill for other things.
    After two deployments, I now receive a much larger amount 
because it is prorated based off the active duty amount and how 
much time I have spent deployed. The amount is actually enough, 
when coupled with my drill pay every month, that I do not have 
to work. I am able to concentrate completely on my studies, 
which any senior will tell you is a hard thing to do.
    I, however, do not have all the obligations that a number 
of soldiers I know have. I have no wife, no children, no car 
payments, and so on. Many National Guard soldiers cannot go to 
school full time and take care of their family with tuition 
assistance and GI bill alone, especially if they have not been 
deployed and receive a smaller, prorated amount. This forces 
them to work while attending school.
    Now there is nothing wrong with working while going to 
school, but for some soldiers I know personally, they have had 
to stop going because they needed to move to full time at work, 
their grades were slipping, or they weren't spending as much 
time with their family as they wanted to.
    The post-9/11 GI bill has attempted to address some of 
these issues by paying basic allowance for housing to students. 
The only problem with that is that, once again, it is prorated 
for National Guard soldiers.
    One solution to this problem might be to have National 
Guard members pay into the GI bill like active duty members do. 
Another possible solution would be to put everyone on the same 
level and not prorate the payments. Neither of these solutions 
is perfect, but they might be a good starting point.
    Education benefits to me seem more complicated. If a 
soldier doesn't sit down with an expert, it is hard to figure 
out the ins and outs of benefits. The difference between the 
five GI bill programs is not easily ascertained by looking at 
the Web site or reading pamphlets.
    If soldiers are better informed about their benefits, it is 
easier to make decisions about whether they can afford to go 
back to school or not, especially those with families. The GI 
bill needs to take into account that soldiers do have families. 
They may not be able to support a family and go to school at 
the same time.
    The National Guard has delayed my education twice, but I 
cannot fault them for that because they are essentially paying 
for it. Also, I believe that the National Guard has made me a 
more marketable person, and when my education is over, I hope 
being more marketable aids me in securing not just a job, but a 
career.
    The problem with this is how do I convey to potential 
employers the significance of what I have done, experienced, 
and learned in the National Guard? Resumes are the most popular 
way of conveying these things. Some of my experiences are 
difficult to put in a resume.
    If I put ``led over 150 combat missions in Afghanistan'' in 
my resume, most employers would not understand the significance 
of that, nor would many soldiers know how to convert that into 
a resume-friendly statement. One way soldiers could translate 
their skills into civilian terms would be to get help from a 
resume-writing professional. I could receive help on my resume 
from the career center at my school, but I feel that they don't 
understand what I have done either. So the significance of it 
won't be conveyed in my resume if they help me.
    I am lucky enough to go to a school that has a large 
veteran population. Someone is always available to critique my 
resume if need be. Many National Guard soldiers are not that 
lucky and must either drive long distances or email resumes to 
more qualified help.
    Educating job recruiters or resume helpers better on 
military may help remedy the problem but is easier said than 
done. I believe that by bringing in military resume-writing 
professionals on drill weekends or by incorporating them more 
at demobilization sites might better help the soldiers.
    I am set to graduate in May, and I have been exploring job 
possibilities of what I am qualified for. The economy may be 
down, but there is a plethora of job postings on Internet job 
search sites, companies' Web sites, and newspapers, et cetera. 
The hard part becomes determining what employers are looking 
for and if I am qualified.
    I have spoken to many soldiers since returning from 
Afghanistan, and this process is the only one that they are 
having the most trouble with. A suggestion that a fellow 
veteran presented to me would be to bring the job recruiters 
from the mobilized units area to the demobilization site and 
recruit from there.
    Soldiers and recruiters would have a chance to speak about 
qualifications, job descriptions, and even do interviews if 
need be. Even if soldiers did not get hired, they would have an 
understanding of what employers are looking for and how to 
better prepare themselves for the job search once their 
mobilization is over.
    I appreciate what the Government and the military have done 
for me, but I think more can be done to help soldiers, sailors, 
airmen, and Marines. I have noticed things improving in my 6 
years in the military, from drill to drill and deployment to 
deployment. There are many new programs starting up throughout 
the country and within our Government that are dedicated to 
helping veterans, which is a sign of forward progress.
    Mr. Chairman, this concludes my testimony. I would be 
honored to answer any questions that the Committee might have.
    Thank you for giving me the opportunity to testify, and 
thank you for all the Committee does for my fellow veterans.
    [The prepared statement of Nathan Rose appears on p. 42.]
    Mr. Stutzman. All right. Thank you.
    Captain Aaron Robinson, we will take your testimony.

                 STATEMENT OF AARON L. ROBINSON

    Captain Robinson. Good morning. My name is Aaron Robinson. 
I live with my wife and my two children in Des Moines. I am a 
commissioned officer with the Iowa Army National Guard, and I 
have recently returned from a 1-year deployment in Afghanistan.
    In my civilian career, I am currently pursuing jobs related 
to project management and data analysis. I want to share with 
you some of the impressions that I have had.
    Is that better? Okay.
    I would like to start today with three impressions I have 
had looking for a job post deployment. First, repeated military 
deployments have given Iowans like me world-class skills and 
experiences, but these are not widely recognized or rewarded 
when searching for civilian work in our home State.
    Second, employers are nearing the exhaustion part of their 
patriotic feelings towards veterans. Despite the laws existing 
protecting against discrimination based on military service, 
employers seem to shy away from hiring citizen soldiers.
    Third, searching for a job while deployed overseas is next 
to impossible, and waiting until after deployment adds stress 
to an already stressful situation, reintegrating with family 
and friends. Let me tell you where I am coming from.
    I grew up on a farm approximately an hour west of Des 
Moines in Yale and graduated from Perry High School in 1992. I 
studied mass communications at Grand View College in Des 
Moines. And after college, I bounced around to various retail 
jobs.
    I enlisted in the Iowa National Guard in 1998. I was 
trained as a tank mechanic. In 2002, I continued my time with 
the National Guard, and I commissioned as an officer in armor. 
I married my wife, Kate, in 2003 and was deployed to Kosovo. My 
child, Amelia, was born at the same time.
    When I returned home, I transferred to military 
intelligence and attended multiple military schools. In my 
civilian career, I worked as an employment counselor for 
homeless veterans and as a general manager for a convenience 
store. After that, I spent a number of years on temporary full-
time active duty status here in Iowa, helping train and 
mobilize more than 16 National Guard units for overseas 
training.
    Last year, I was deployed to Afghanistan, where I served as 
the intelligence officer for the 113th Cavalry Squadron. The 
experiences I received there were excellent, and I could not 
have received them anywhere else.
    Since coming home to Iowa in July, I have been steadily 
looking for work. As of today, I have been unable to find any. 
I know I am not alone.
    For example, an enlisted soldier of mine that was our 
database manager for our security clearances--and that was 500 
pieces of information, that is about the size of a small 
company--wasn't able to find a job. To add insult to injury, he 
can't even find work in his old civilian application as a 
welder.
    I face similar challenges as my friend, trying to figure 
out how to translate my military language into human resource 
speak. After some resume coaching, I found that work in 
intelligence most closely applies to business analysis and 
project management.
    However, unlike my purely civilian counterparts, I am not 
necessarily versed in the latest business acronyms and 
buzzwords, which increase my likelihood of getting through H.R. 
filters. Also, while I am proficient in military computer 
software and hardware, I am not specifically trained in systems 
most familiar to potential civilian employers.
    Employers, politicians, and even the media talk up certain 
ideas about veterans. They are hard working. They are 
motivated, that we are mission focused and people focused, and 
we handle pressure extremely well. Beyond this and the 
occasional job fair and welcome home, we don't seem to get a 
lot of practical help getting hired.
    I had said this many times. Everybody wants to help, but no 
one really seems to know how. I have received lots of well-
intended suggestions, sometimes conflicting. But none of them 
have gotten me much farther in my job search.
    Maybe employers are getting burned out. Ten years of war 
and Iowa's river floods and blizzards and other State 
emergencies might do that. Maybe they are worried that I am 
going to deploy again. Maybe they really don't see the economic 
values inherent to my military skills and experiences.
    I know times are tough for a lot of Iowans. I don't want to 
get a job just because I am a veteran. But I would like to at 
least get a chance to get an interview and prove that I am a 
good employee. I also want to keep my family in Iowa to give my 
kids the same values and experiences that I had.
    But for now, my family's life is on hold. The military gave 
me time after deployment to unwind and reintegrate and get into 
a normal life. I don't feel like I have done that. I plan on 
going back to school. I have been putting it off because of the 
lack of stability in my life and the life of my family.
    Interviewers don't ask me about my military experience, but 
they know it is there. If I didn't put it on my resume, they 
would know from talking to me. I am proud of the work I have 
done and some of the people I have served with. I am just an 
Iowa farm kid that got a chance to do some exciting things in 
some pretty unpleasant places with some really great people.
    I just want to get back to my civilian life, get a normal 
job, and be a regular person for a while. My wife and my kids 
would like that, too.
    Thank you for my opportunity to share my experiences.
    [The prepared statement of Aaron L. Robinson appears on p. 
44.]
    Mr. Stutzman. Well, thank you.
    And I would like to ask a couple of questions, and then 
Congressman Braley has some as well.
    First of all, thank you just to both of you again for your 
service. Your stories are very compelling, and I am sure, as 
you said, there are others that have the same stories. I grew 
up as a farm kid as well. So I know the background that you 
have, but the challenges that you face are, obviously, very 
frustrating, I am sure, to you and your family.
    To both of you, what type of transition services have you 
received from the Iowa National Guard or DoD following your 
deployment?
    Sergeant Rose. At demobilization site, they give us 
briefings on different help that is available, as well as 
overviews of that help. And then we have what is called a 
``Yellow Ribbon event,'' where we go to more briefings that 
tell us about all of the services that are available to us or 
if we need help where to go.
    Captain Robinson. Can I piggyback on that?
    Sergeant Rose. Yes.
    Captain Robinson. Okay. Of course, my experiences are very 
similar to his. I have had the opportunity to also talk with 
Iowa Workforce Development and their vet reps out in Des 
Moines. They have been great.
    I have talked with JSEP. I sent my resume to them for some 
resume critiquing. Those are probably the big ones.
    The Yellow Ribbon event was a really good job of putting 
all the information I think that you really need to know in one 
spot. But if you didn't want to run it down, I don't know if 
you really got it. Because a lot of people come in and say, 
``We will help,'' but I didn't really see----
    Sergeant Rose. It seems like it is just more of an 
overview, like, ``This is available to you,'' but you have to 
go do it on your own. You have to go find it on your own.
    Mr. Stutzman. Well, Staff Sergeant Rose, you mention in 
your testimony that ``a suggestion that a fellow veteran 
presented to me would be to bring job recruiters from the 
mobilized units area to the demobilization site and recruit 
from there.'' Can you kind of follow up on that a little bit 
more and how that works?
    Sergeant Rose. Well, his idea was that like since a lot 
of--in Iowa, you could bring in the companies from like Des 
Moines, Waterloo, the bigger areas that are actually 
recruiting, and you could bring their recruiters up to 
demobilization site. And then, once there, while we are going 
through the process of demobilizing, you could also have them 
there.
    So the people that need jobs or are going to look for jobs 
once they come off active duty, they could talk to them there. 
And then if the recruiters liked what they saw, they could set 
up interviews, maybe hire from there. If not, at least people 
would know what is out there, what is needed to actually get a 
job when they come back.
    Mr. Stutzman. Okay. And then, Captain Robinson, have you 
utilized the services provided at the One-Stop by DVOP or 
LVERs? And if so, did you find these services helpful at all?
    Captain Robinson. I don't believe I have at this time.
    Mr. Stutzman. Do you know what those--the DVOPs and LVERs 
were. Were those presented to you at all?
    Captain Robinson. You know, they throw so much stuff at us 
in such a short period of time that you do almost get--it 
almost becomes white noise. I know what DVOP is. I have been 
lucky enough to work with them on the periphery before. But I 
haven't used them.
    Really, one of the bigger things I have used since I have 
been home is the Iowa Workforce Development.
    Mr. Stutzman. Okay. That is who they work for? Yes. So you 
should be working with--you say you are working with Workforce 
Development? That is what we call it in Indiana?
    Captain Robinson. Yes, absolutely.
    Mr. Stutzman. Okay. And then, what was your civilian job 
before you went on your most recent deployment?
    Captain Robinson. Well, I went on active duty operational 
support back in I think it was--might have been '08. I was on 
long enough everybody thought I was active duty. I was actually 
working for a convenience store.
    I had gone--I was working for the convenience store. They 
were great. While I went to active duty operational support, 
they downsized themselves by about 36 stores, and they 
liquidated all the employees. So there is no job there anymore.
    Prior to that, like I said, I have worked with the 
Department of Labor, HVRP, Homeless Veterans Reintegration 
Program, and that is probably the one I put more towards. I 
worked with them for about a year and a half.
    Mr. Stutzman. Now did you mention you were a welder or your 
friend was a welder?
    Captain Robinson. My friend was a welder, sir.
    Mr. Stutzman. Your friend was a welder. What happened with 
him?
    Captain Robinson. The company that he was working with is 
not hiring. He also came on early. We brought him on early to 
do our database management for our security clearances. He came 
on early, and when he went back to his job, they said they 
weren't hiring.
    I think he probably falls into what you call an 
``underemployed.'' ``Oh, well, if I lose my job while I am 
gone, I don't really care. I am not going to make a fight out 
of it. I am going to be gone for a year and a half'' is kind of 
what he was thinking. When he came back, now he kind of--when 
he could have run something down earlier, I think he lost that 
opportunity.
    Mr. Stutzman. Yes. I mean, would you feel that you or him, 
your rights were violated under USERRA as far as a job?
    Captain Robinson. I don't think that my rights--I can't 
comment to this soldier, but I can comment to mine. I don't 
think my rights were violated. I think they have had 10 years 
to find new and creative ways not to violate your rights, if 
you are somebody who is going to be an issue. H.R. people, I am 
sure, figured out the way.
    But I don't think necessarily my rights are violated. And 
honestly, I don't want to go back to a company that was going 
to make it a big deal. I want to work for a company that wants 
to have me.
    Mr. Stutzman. Right.
    Captain Robinson. I don't want to have one I have to fight 
to stay with.
    Mr. Stutzman. Yes. I appreciate that.
    Congressman Braley.
    Mr. Braley. Thank you.
    I want to thank both of you for your eloquent testimony. 
You both touched on something that we hear over and over at our 
Economic Opportunity Subcommittee hearings. Staff Sergeant 
Rose, you said in your statement, ``How do I convey to 
potential employers the significance of what I have done, 
experienced, and learned in the National Guard?'' which was 
incredibly eloquent.
    And Captain Robinson, you said that you are trying to 
figure out how to translate military language into civilian 
human resources speak. And as I am sitting here, I am thinking 
what we really need is a Rosetta Stone program for people 
coming off of active duty or Guard and Reserve service and for 
human relations employees and companies who are looking to hire 
them.
    Because so much of what you did and the experiences you had 
have valuable application in the civilian work setting, but we 
seem to have an extraordinary challenge of bridging that gap 
between the two worlds. So do either of you have suggestions on 
what we can tell civilian employers to help them better 
understand how you were shaped by your experiences and why that 
makes you a valuable employee?
    Captain Robinson. I will go first. Okay. I think your use 
of the term like a ``Rosetta Stone'' is a great idea. I think 
everyone understands, especially when they talk about 
officers--NCOs, staff sergeants, and above--equals leadership. 
And I have never met anybody that doesn't go, okay, well, yes, 
you obviously have leadership skills.
    That is great. I also can do database management. I have 
also worked negotiation skills. I have worked with multiple 
different countries while I was deployed. And some kind of 
Rosetta Stone, yes, that would say ``if I am an intelligence 
officer, this is what skills I picked up'' would be great.
    Same thing with a mechanic or an infantryman or a medic I 
think is the way we need to go because when I say mechanic, you 
know kind of what he or she can do if they were in the service. 
But when I say intelligence officer, outside of the snickers 
that come from everybody else that has ever been in the 
military, you don't really know what I am doing.
    [Laughter.]
    Captain Robinson. And how to translate those less parallel 
ones would be great.
    Mr. Braley. Staff Sergeant Rose.
    Sergeant Rose. It is tricky. It is easy to identify 
problems, but it is hard to come up with the solutions. Maybe 
just employers need a better understanding of the military 
overall because like you said, like officer and NCO is a 
leadership position. But if I tell someone I was a 
noncommissioned officer, they are either going to go Google it 
and read the first thing that, okay, he is a noncommissioned 
officer. You led people in Afghanistan or Iraq.
    But then, still, that is not telling them what I did. It is 
just a real quick overview. It is a very broad view of what I 
have done. If they had some better process of me being able to 
list what I have done and then have better understanding of 
that, they may be able to translate it better what they are 
thinking. Like I said, it is a tough problem to solve.
    Mr. Braley. But do you think that programs like the one 
that I saw down at Camp Shelby where civilian employers were 
actually given the opportunity to travel to your pre-deployment 
training area and get to experience more of the world you were 
preparing to enter and spend time with you, do you think those 
programs are helpful in terms of bridging some of the gaps of 
understanding you have identified?
    Sergeant Rose. I think so because then they actually get to 
see us in the environment we work in. Even though it is 
training, but it is training to be in the actual theater. But I 
believe it would be helpful.
    They would see how--what officers do for their men, what 
NCOs do for their men, what the privates and the specialists 
and all of them do out there in the training environment and 
what they are actually responsible for and things like that. 
So, yes, I believe that it would be extremely helpful.
    Mr. Braley. Captain Robinson, as I was reading from my 
father's discharge papers, could you identify with some of 
those things, as a farm kid growing up in Iowa?
    Captain Robinson. I did. And I will be honest, I never 
would have wanted to go back to farming. But----
    Mr. Braley. The reason I ask you that is you made a comment 
in your statement that veterans don't seem to get a lot of 
practical help in getting hired, and I think this is one of the 
biggest problems I hear of. We hear of this on the Committee 
all the time.
    We had General Petraeus's wife, Holly, testifying at one of 
these get-togethers, and they were all talking about what we 
can do to better inform veterans when they are being 
demobilized of all of their legal rights and how to protect 
themselves. And I said, you know, back in Iowa, we would just 
give somebody a refrigerator magnet, and they would have that 
on the refrigerator. And when they needed that 800-number, they 
would know where to find it.
    And Senator Rockefeller was at that meeting, and he was, I 
think, pretty shocked by the fact that a refrigerator magnet 
might be an actual practical thing to help people in a time of 
need.
    Captain Robinson. It is right there. I mean, you are 
absolutely right. I like to start with the fact that if I knew 
what the golden answer was to being able to be employed, I 
wouldn't probably be here today. I know it is a tongue-in-cheek 
statement, but it is absolutely true.
    It is amazing how just in the few months that I have been 
home how my job search has changed from for some reason, when I 
first came home, I felt like it was the most important thing I 
needed to get done. And then I tried to take a breath and tried 
to really enjoy being home with the family.
    And then, once again, I am coming back to, oh, yes, I need 
to have a job because if I don't have one not only am I not 
working, but I am driving my wife insane, and it is time to go 
away--for anybody who has ever been there. But being able to 
call somebody when it is time to look for work I think is a 
great idea.
    Mr. Braley. Thank you, Mr. Chairman.
    Mr. Stutzman. Captain Robinson, I would like to ask just a 
couple of questions yet. Have you had any interviews since you 
have been back?
    Captain Robinson. Ironically, the only interview I have had 
I got from a conversation I started while I was in Afghanistan, 
and then my second one will be tomorrow. I am not getting 
interviews. And I have actually talked to my civilian 
counterpart friends, saying the interviews aren't coming for 
anyone, or at least they aren't where I am looking and in the 
venue I am.
    So I don't really get any feedback. I never know if my 
resume is good. I don't know if I am putting the wrong thing 
out there. And that is the hardest thing. With no feedback, I 
don't know if I am right or wrong. I could be completely off 
base.
    Mr. Stutzman. Yes. Because that is what I am wondering. 
What are the reasons for not furthering their interest in you? 
Are you hearing anything from any of your friends, either one 
of you, on some of the reasons why they may not be hiring?
    I know we are in a tough economy and things like that. That 
doesn't make the job any easier for anybody. But I mean, both 
of you, I mean, represent a lot of men and women across this 
country that people should be looking to to hire.
    Captain Robinson. I believe it is a hard time just of the 
year to hire, to be honest. As we get closer to the end of the 
year, more people take more time off. H.R. people aren't nearly 
as vested in that. So I think that plays into it.
    But everyone I have talked to, and I have gotten phone 
calls and texts and every other version of communication we 
have these days, on people saying, ``I am not getting calls 
back either.'' I am putting out. I know people who have put out 
15 resumes and haven't gotten a call back.
    So these are all veterans. I mean, we are all in the same 
boat. But like I said, I don't know if it is because we are 
veterans or if it is just because nobody is getting a call 
back.
    Sergeant Rose. I have talked to quite a few veterans as 
well that echo that statement. They are not getting calls back. 
I have talked to one soldier. He has expanded his search from 
the Iowa/Minnesota area to the whole country, and he is still 
not getting calls back. And he is not sure why.
    I mean, he has used the resume help. He has done things 
like that, but he is just still not getting calls.
    Mr. Stutzman. If we were able to offer the active duty 
Transition Assistance Program at locations around Iowa, do you 
think you would take time or others that you know would take 
time to attend any of those?
    Captain Robinson. I can say for myself, I would. I am also 
lucky enough to live relatively close. Living in Des Moines, it 
is very easy when one of those things pops up because it is 
probably going to be close to me.
    But if you live in Waterloo and it is in Des Moines, if you 
live in Sioux City and it is in Des Moines, I think it is even 
harder out there. Because of the squadron, a lot of people are 
in Sioux City, and that is the people I talk to. I would 
absolutely go.
    Mr. Stutzman. Okay.
    Sergeant Rose. Oh, I was also going to say that I feel that 
some of the younger soldiers don't quite fully understand the 
importance of programs like that. So it is really tough to get 
them to go to events like that because they are still young. 
They still have that kind of carefree attitude.
    I am not saying all of them are like that, but I am saying 
a lot of them that I know are. So it is very tough to get them 
to voluntarily go to a program like this when it is tough to 
see a year or two down the road for them.
    Mr. Braley. Well, I am just struck by the fact that you are 
referring to people as younger soldiers, Staff Sergeant Rose.
    [Laughter.]
    Mr. Braley. Because from where I sit, you look like a young 
soldier. But I had the great privilege of traveling home from 
Atlanta with Staff Sergeant Rose and getting a chance to meet 
Captain Robinson today. I would just say that any employer 
would be lucky to have either of you.
    And if you are representative of the people we are 
producing in the Iowa National Guard, this State should be very 
proud. And we thank you and wish you the best of luck in the 
future.
    Mr. Stutzman. Thank you to both of you, and appreciate your 
testimony. It has been very helpful to both of us and our 
staff. And at this time, you are excused.
    And please feel free to keep in contact. I am sure 
Congressman Braley would love if you stayed in contact with his 
office, and anything that we could ever do to help. But we 
really appreciate you, and at this time, we will excuse both of 
you and invite our second panel now to join us.
    The second panel is going to consist of Ms. Stacy 
Litchfield with Deere and Company. Mr. Kerry Studer--I hope I 
said that right.
    Major Studer. Studer.
    Mr. Stutzman. Studer, okay. It is kind of like Stutzman--
``Stootzman,'' ``Stutzman.'' And he is with the Principal 
Financial Group. Ms. Stacey May with Honkamp, Krueger and 
Company. And finally, Mr. Tim Carson with Rockwell Collins.
    I want to welcome all of you to this hearing and thank you 
for your time this morning, and we are anxious to hear what you 
all have to say. And we will start with Ms. Litchfield with 
Deere and Company. Each of you will have 5 minutes to share 
your testimony with us.
    So, Ms. Litchfield.

   STATEMENTS OF STACY LITCHFIELD, REGIONAL MANAGER, TALENT 
  ACQUISITION AND PERFORMANCE CONSULTING, DEERE AND COMPANY, 
    MOLINE, ILLINOIS; MAJOR KERRY M. STUDER, USA, ASSISTANT 
 MANAGING DIRECTOR, COMMERCIAL REAL ESTATE DIVISION, PRINCIPAL 
   FINANCIAL GROUP, WATERLOO, IOWA; STACEY MAY, MANAGER, TAX 
 CREDIT PROGRAM, HONKAMP, KRUEGER AND COMPANY, P.C., DUBUQUE, 
  IOWA; AND TIMOTHY J. CARSON, MANAGER, VETERANS INITIATIVES, 
OFFICE OF DIVERSITY, ROCKWELL COLLINS, INC., CEDAR RAPIDS, IOWA

                 STATEMENT OF STACY LITCHFIELD

    Ms. Litchfield. Thank you.
    Congressman Braley and distinguished Members of the 
Committee, my name is Stacy Litchfield. I am the U.S. regional 
manager for talent acquisition with Deere and Company. On 
behalf of John Deere, thank you for the opportunity to provide 
testimony today on this important topic.
    John Deere is a worldwide leader in providing advanced 
products and services for agriculture, forestry, construction, 
turf care, landscaping, and irrigation. We are a leading 
manufacturer of off-highway diesel engines and one of the 
largest equipment finance companies in the United States. We 
have operations in 30 U.S. States.
    As an employer, we focus on attracting, developing, and 
retaining the best global talent from all backgrounds. At 
times, our recruiting efforts focus on access and visibility to 
specific groups. One is veterans.
    We identify organizations that provide the broadest reach 
and help our staffing team leverage various military recruiting 
initiatives and related events. John Deere staffing 
participates in several recruiting events targeting veterans, 
including career fairs, conferences, and virtual career fairs.
    We also work directly with the military when appropriate, 
and we have participated in the Army Partnership for Youth 
Success, PaYS, Program since its inception. Young men and women 
can enter the service knowing that they will receive 
specialized training and develop skills that are in demand in 
the private and public sectors, and Deere gets access to a pool 
of skilled candidates.
    John Deere is also active in a variety of outreach programs 
and job boards that help us connect with veterans who offer a 
broad array of skills and experiences. We also work with 
military staffing organizations to recruit veterans. For 
example, the Army Partnership Program, a job posting and resume 
database, has provided us with candidates for both mid-career 
and wage positions.
    Along with employing veterans, we support programs that 
help veterans start businesses and become suppliers to 
companies like ours. Our suppliers include about 200 veteran-
owned businesses and about 50 businesses owned by service-
disabled veterans.
    At John Deere, we recognize that engaged employees working 
together create a competitive advantage. We cultivate an 
environment of inclusive teamwork through programs such as our 
employee networks. One of these resource groups is composed of 
employees who have a connection to the U.S. military. The group 
brings employees together to build relationships, provide 
support, and sponsor military outreach activities.
    Deere also has military leave of absence provisions for 
Reservists and Guardsmen who are called up for active duty in 
Iraq and Afghanistan. To help ease the financial hardship 
endured by these soldiers and their families, Deere voluntarily 
provides up to 2 years of differential pay, where applicable, 
along with health benefits, life insurance, and other benefits.
    The impact on retention has been significant. Since 2001, 
more than 200 Deere employees have been deployed. Over 96 
percent of those soldiers still work for John Deere.
    Even though veterans are purposely included in our 
recruiting, development, and retention efforts, we do face 
challenges in effectively bringing them into our organization. 
First, with the variety of organizations and job boards 
available, it is difficult to determine the best way to connect 
with job candidates from the military workforce.
    Our recommendation would be a central data source that 
offers links to standardized job, industry, and geographic 
classification codes to other reported Federal labor, 
employment, economic, and census data. This would help improve 
results for job posting visibility among the right candidates.
    Additionally, many veterans are challenged to translate 
their education and skills to fit requirements for nonmilitary 
positions. Transitioning military may also be at a disadvantage 
without accreditation or certification required by some 
professions.
    To remedy this, all levels of government could implement 
solutions that effectively balance current challenges with 
educational system gaps, the accreditation of job seekers, and 
the fiscal demands and resources of employers.
    In closing, I want to highlight again the importance, 
priority, and demonstrated focus John Deere places on hiring, 
outreach, skill development, and training of veterans. Thank 
you again for the opportunity to share our views and on 
improving employment opportunities for veterans.
    I would be happy to answer any questions.
    [The prepared statement of Stacy Litchfield appears on p. 
45.]
    Mr. Stutzman. Good. Thank you.
    Mr. Studer.

                  STATEMENT OF KERRY M. STUDER

    Major Studer. Thank you.
    Chairman Stutzman, Ranking Member Braley, and Members of 
the Subcommittee, thank you for the opportunity to discuss the 
Principal Financial Group's commitment to protecting the rights 
of veterans and our Guard and Reserve members.
    I am Kerry Studer, a recently deployed Army major and 
assistant managing director at Principal Financial Group in 
their Commercial Real Estate Division. I have been mobilized on 
deployments 3 times over my 22-year military career and had the 
opportunity to see firsthand how two different civilian 
employers and one university handled those such deployments.
    Principal, as an employer with more than 200 veteran and 
military employees, with the experience of having 9 employees 
on emergency leave in the last 2 years, Principal is committed 
to protecting the job rights of employees who serve their State 
and country through the uniformed services. I am here today to 
talk about that such commitment.
    I have submitted a formal written statement, which I would 
like to summarize in these verbal comments today with really 
three primary areas of focus. One, what we are doing on the 
front end in getting more veterans within our Principal ranks. 
Two, what we are doing to support our current veterans and 
employees that are currently within our ranks. And three, and 
probably most importantly, what are currently doing to increase 
awareness of corporate and community outreach within central 
Iowa.
    Recruiting and retention. The Principal has clearly 
targeted outreach efforts in order to attract and retain 
military employees and veterans. We have a successful hiring 
process of previously deployed soldiers with a specific target 
on really focusing on co-ops and internship programs of those 
students that are currently in or completing their 4-year 
degree.
    Over the last 10 years, there is a lot of soldiers that 
have not had the opportunity to sit, unannounced, in a 4-year 
academic institution and complete their degree. Whether it be 
one or two deployments, we find that this is a current process. 
When hiring constraints tend to be tough, we have really 
focused in on these co-op opportunities. It is a 9-month 
snapshot to bring them in-house, get them out of their academic 
curriculum and get them exposed to corporate America before 
they complete their degree to give them a little bit more 
snapshot and guidance in corporate America.
    We also proactively participate in veteran-focused career 
fairs, such as the upcoming Hiring Heroes event scheduled in 
early November. And we think it is important not only to have 
H.R. support there, we took a step above, and we are sending 
30--over 30, actually, current veterans that are within our 
ranks at Principal to really act as ambassadors of what it is 
like to work at Principal. And sometimes we feel that these 
veterans do a better job of bridging that gap between deployed 
veterans and the H.R. area.
    Our internal support of our military and our military 
families, what I call kind of creating a culture, it is well 
documented. We are a recent Freedom Award recipient. But I 
wanted to highlight just a few things about Principal and what 
they did to me as my deployment.
    Not only did my company support me, my family, and my unit, 
they took the time to understand what the deployment did to 
both the soldier and the families back at home. While H.R. 
guidelines and corporate support are all important to success 
in supporting deployed soldiers, we think the very best 
companies take that personal approach to company support and 
extend that assistance at a very personal level. It is that 
personal touch that, in my personal opinion, solidifies the 
relationship both to and from that soldier and corporate 
America.
    We think awareness is the key to driving additional 
support. Our CEO, Larry Zimpleman, is very involved in 
supporting the Guard and Reserves. A member of our senior 
management, usually which is Larry, provides a keynote address 
every year near Veterans Day to our current employees. The 
nature of this event varies from year to year. But this year, 
we are providing all of our units, all of our veterans within 
our ranks a military coin that just says ``Thank you from 
Principal.''
    While this may seem like a small token from senior 
leadership, I have personally been to these events. It is a way 
that veterans can get together within the ranks not only to 
talk about their experiences, but to talk about other veterans 
that they know and how we can bridge the gap in getting more 
veterans into our ranks.
    Most veterans are generally humble in nature, but our 
senior executives take the time each and every year to remind 
each of the veterans of their personal sacrifice and the fact 
that our company generally appreciates their service.
    Community outreach and support. Senior leaders at the 
Principal, I can attest personally and publicly, express the 
support of their military employees, family members, and 
veterans through a number of things. When I think one of the 
most important items that we do is we recently did a hosting of 
an Employer Support of the Guard and Reserve statement at a 
workshop event.
    While these happen across all States and they have happened 
certainly within Iowa, I think the components of this in 
bringing other corporate citizens to an event, highlighting one 
corporate supporting this with the right people, the right 
members, the right venue, and the right passion, we have seen 
that these events can spread the word within corporate America 
on what value these veterans bring to the table and what ways 
we can do to attract and do best practices of bridging those 
gaps.
    To close, as I mentioned earlier, I have been mobilized or 
deployed 3 times in my 22 years of military service. Without 
question, the Principal has set itself apart from all others in 
supporting me and my family. The cumulative effect of all the 
programs, events, and activities I have mentioned today is a 
work environment where military and veteran employees feel 
supported in their military leave while they are away and of 
value for the service they have provided for their State or 
country once they return.
    While senior management can lead with the support and 
encouragement, each department and every individual at all of 
our companies plays a vital role in creating that supportive 
culture. I can't say enough about the commitment that the 
leaders and employees have shown personally and publicly by 
expressing support of the military and veterans at Principal 
and beyond.
    I am lucky to be a citizen of this great country. I am now 
a retired major in the United States Army and an employee of 
the Principal. I feel I have benefitted from the best-case 
scenario in terms of the relationship between my military 
service and my employment at Principal.
    What we need now is for more companies to step up, create a 
platform for even more best-case scenarios so that they can 
become the norm, not the exception. I look forward to that 
happening, and I am happy to help in any way.
    I am honored to be here today. Thank you for your time.
    [The prepared statement of Kerry M. Studer appears on p. 
46.]
    Mr. Stutzman. Thank you, and thank you for your service as 
well.
    Ms. May.

                    STATEMENT OF STACEY MAY

    Ms. May. Chairman Stutzman, Ranking Member Braley, and 
Members of the Subcommittee, thank you for the opportunity to 
speak today.
    I am Stacey May. I work at Honkamp Krueger out of Dubuque, 
Iowa, and we have a little bit different take than some of the 
other committee members today, or people doing testimony. 
Honkamp Krueger has a service that we provide to our clients 
that benefits veterans, and so that is what I am going to talk 
about today.
    According to the Department of Labor, the unemployment rate 
for veterans ages 18 to 24 in 2010 was 20.9 percent. Even more 
astonishing is that veterans as a whole accounted for a total 
1.02 million people looking for work in the United States.
    To make matters worse, on October 5th, Federal Reserve 
Chairman Ben Bernanke warned, while addressing Congress, that 
the economic recovery, as it currently stands, ``is close to 
faltering''. He later stated, ``We need to make sure that the 
recovery continues and doesn't drop back and that unemployment 
rate continues to fall''.
    To sum it up, we need action, action to keep this economic 
recovery going and action to make sure businesses continue to 
hire, otherwise, the unemployment rate for veterans and the 
country as a whole will continue down a path toward higher 
unemployment and further economic turmoil.
    I believe the core part of the action needed to sustain a 
continued recovery is a permanent employment tax credit that 
incentivizes business to hire. The Work Opportunity Tax Credit 
does just that. The WOTC program is a perfect example of a 
successful Government program that rewards businesses for 
hiring employees from certain target groups that have 
consistently faced barriers in seeking employment.
    These groups, known as target groups, include veterans, 
people on Government assistance, the disabled, ex-offenders. 
According to the Department of Labor, the WOTC program 
processed 849,868 certificates in fiscal year 2010 that allowed 
employers to claim the tax credit on their income tax return. 
Currently, employers that hire qualifying employees generally 
may be eligible for a 1-year Federal income tax credit worth 
anywhere from $1,200 to $4,800 and, in some cases, a 2-year 
credit worth up to $9,000.
    Unfortunately, the WOTC program is set to expire at the end 
of the year, December 31, 2011, which would be an additional 
blow to the veteran community when seeking employment.
    I believe that we can get our unemployed veterans back to 
work with the WOTC program by making three changes. One, make 
the Work Opportunity Tax Credit permanent. Since its creation 
in 1996, the WOTC program has been up for renewal eight times. 
By making the program permanent, it would add stability in the 
hiring process.
    Two, expand the program by adding a target group for hiring 
unemployed veterans. President Obama mentioned this in his 
proposed American Jobs Bill, naming it the ``returning heroes 
tax credit.'' It would allow unemployed veterans to qualify 
their employer for WOTC.
    Three, increase the maximum tax credit amount an employer 
may receive for hiring qualified veterans. Increasing the tax 
credit amount would further incentivize employers to hire 
veterans.
    The unemployment rate for the veterans in our country is 
too high. We need action by our leaders in Washington to help 
veterans who served our country get back to work. With 
modifications to the WOTC program, such as making the WOTC 
program permanent, creating an unemployed veterans target 
group, and increasing the tax credit for hiring veterans, it 
will not only fuel employers to create jobs, it will fuel 
employers to hire our brave veterans.
    Thank you.
    [The prepared statement of Stacey May appears on p. 50.]
    Mr. Stutzman. Okay. Thank you.
    Mr. Carson.

                 STATEMENT OF TIMOTHY J. CARSON

    Mr. Carson. Thank you.
    Congressman Stutzman, Congressman Braley, my name is Tim 
Carson, and I serve as a manager of veterans initiatives with 
the Office of Diversity at Rockwell Collins, a global aerospace 
and defense company headquartered in Cedar Rapids, Iowa.
    In my position, I work closely with Rockwell Collins human 
resources organization and a variety of external partners to 
promote outreach to veterans and veterans organizations. I am 
pleased to have the opportunity to talk to you today, and I 
appreciate that you are taking time to listen to the 
perspectives of business and the community.
    It is particularly germane to this State, which has one of 
the highest number of per capita Reservists serving on active 
duty of any State in the union. And on behalf of Rockwell 
Collins, I would like to express my sincere appreciation for 
the invitation to speak about the importance of helping 
veterans secure meaningful employment.
    The valuable service these men and women provide is 
undeniable and so are the core skills they developed in the 
service--leadership, discipline, responsibility, and 
technological savvy--that can be invaluable to civilian 
employers.
    However, today more than 870,000 young veterans are 
unemployed, a rate higher than the national unemployment rate, 
according to the Iraq and Afghanistan Veterans of America. And 
the wind-down of engagements abroad will lead to an additional 
million seeking civilian employment in the next 5 years.
    When Rockwell Collins talks about these soldiers, we are 
not just speaking about them as a simple subpopulation amongst 
all of today's unemployed. We are talking about the people that 
we serve. They have relied upon our communication technology to 
stay connected with their leadership in harsh, remote settings 
around the globe.
    They have used our navigation systems to ensure the 
pinpoint accuracy of weapon systems in areas where civilians 
and combatants often live side by side. They have identified 
friend and foe with our helmet-mounted displays, and they have 
given us feedback based on their own experiences to make these 
systems better for the next generation of warfighters.
    We are grateful for their service and are dedicated to 
helping them successfully transition from their military 
service and bring their skills and experiences to the civilian 
workforce. To that end, Rockwell Collins has always prioritized 
the hiring and retention of veterans and advocates that 
businesses across the State and Nation do so as well.
    We also believe it is important for us and other companies 
to partner with local and national organizations to ensure 
veterans receive the counseling, training, and guidance that 
they need to secure and make the most of meaningful employment 
opportunities.
    Today, I am going to talk about some of the initiatives 
Rockwell Collins has pursued to build our veteran workforce and 
the partnerships we maintain. These aren't necessarily the only 
answer. In fact, I am sure there isn't one single answer to 
this challenge. But we recognize that you are seeking a breadth 
of ideas, and I think we have some good ones.
    Internally, our company has practices and policies in place 
to ensure that we attract and retain veterans and their spouses 
as employees. Nearly 8 percent of our domestic workforce is 
made up of veterans, and at any given time, a number of them 
are serving active duty through the Guard and Reserve. In fact, 
we are a strong advocate of the principles of the Iowa Employer 
Support of the Guard and Reserve, or IESGR, which has been 
mentioned.
    The organization calls for companies to adhere to and go 
beyond the provisions of the Uniformed Services Employment and 
Reemployment Rights Act, including maintaining benefits, 
contributing to employee 401(k)s during military active duty, 
and maintaining vacation accrual and raises. Because Rockwell 
Collins follows these guidelines and also promotes these 
principles to others in the community, we have earned a five-
star rating from the IESGR.
    We also recognize that legal issues can be a burden on Iowa 
servicemen and women before, during, and after their deployment 
and provide ongoing support of the Iowa Returning Veterans 
Project to provide them with free legal assistance. Our human 
resources group has a full-time recruiter devoted to 
identifying and hiring military talent, and we allocate a 
specific and growing percentage of our annual recruitment 
advertising budget to military outreach.
    Through these efforts, we have consistently grown our share 
of veterans as a part of our total workforce, including a 4 
percent increase over the past fiscal year. But there is more 
to go.
    Our leadership has identified the hiring of even more of 
yesterday's warriors as a key business goal for fiscal year 
2012. And we are launching an enterprise-wide strategy to 
increase our outreach, recruitment, hiring, and retention 
efforts for veterans and veterans with disabilities.
    Once hired, we further the well-being and retention of 
these individuals through a veterans employee network group, 
corporate networking opportunities, and special engagements 
such as transition think tanks and PTSD seminars. We 
collaborate with the Veterans Administration and other subject 
matter experts to ensure that the necessary supports and 
services are made available and are also accessible to our 
employees.
    We also recognize the importance of supporting veterans 
through our business contracting with suppliers. Year-to-date, 
Rockwell Collins has spent $57 million, nearly 5 percent of 
total corporate spending, with suppliers with veteran-owned 
small businesses and $13.6 million with service-disabled 
veteran-owned small businesses.
    Now, we are fortunate to have gained some recognition for 
these efforts. Rockwell Collins has been named a top 100 
military-friendly employer by GI Jobs magazine for the past 2 
years, and we strive every day to continue to deserve that 
recognition. Beyond our own hiring practices, Rockwell Collins 
seeks to support initiatives that promote hiring of veterans 
across the Nation.
    We are a proud corporate sponsor of the jobs and internship 
program, a partnership championed by the U.S. Chamber of 
Commerce and Student Veterans of America. In fact, we recently 
made a significant contribution to the Chamber, specifically 
earmarked for their partnership with the SVA and development of 
the Hiring Our Heroes Initiative.
    We attended the SVA's leadership summit and career fair 
this past summer in Madison, Wisconsin, and we will support the 
SVA's national conference this December as a corporate partner, 
exhibitor, and employment panel participant.
    An initiative that is a personal passion for me, we also 
work to bring disabled veterans into the workplace through a 
relationship with the National Organization on Disability, 
known as NOD, and its Wounded Warriors program. As a primary 
sponsor of the organization, one of our senior executives sits 
on the board for NOD and is engaged in communicating core 
messages, events, and opportunities for Rockwell Collins to 
both support and influence.
    And we continue to seek additional relationships or 
opportunities to promote veteran hiring wherever we do business 
and to talk about it at every opportunity, like we are here 
today.
    Now there is no one, single solution to the complex 
challenge to veteran unemployment, and it is a pleasure to hear 
from the other participants today and to get new ideas to 
consider. But I hope that my and Rockwell Collins' contribution 
to the conversation is helpful as you consider the public and 
private strategies to tackle this issue.
    These men and women willingly accepted one of our Nation's 
most vital and precious responsibilities of protecting the 
country from harm, and in turn, we commit to fulfill our 
responsibility to help them put the unique and desirable skills 
they developed in that endeavor to work for the well-being of 
themselves, their families, and their future.
    I welcome any questions you may have today, and I also 
encourage you to contact Rockwell Collins if you would like to 
know more specifics about some of the initiatives that I have 
outlined for you here today.
    Thank you.
    [The prepared statement of Timothy J. Carson appears on p. 
51.]
    Mr. Stutzman. All right. Thank you very much to each of 
your testimony. It has, again, been very helpful.
    A couple of questions. Ms. Litchfield, I will start with 
you. First of all, we have all John Deere on our farm. We do 
have a couple of red ones. They are just for show, but----
    Ms. Litchfield. I am glad to hear that.
    [Laughter.]
    Mr. Stutzman. In your written statement, you talked about 
the difficulties in matching veterans with the appropriate 
positions due to the numerous boards that are available. I am 
sure that is a challenge. Can you talk a little bit about have 
you ever used the National Labor Exchange's job board, run by 
the Direct Employers Association, and kind of how can you--has 
one board been more successful than another?
    Ms. Litchfield. I can't speak specific to the job board 
success or nonsuccess, but we are in a partnership with Direct 
Employers Association. So we do use that particular job board.
    In regards to matching skill sets with openings that we 
have, I think it relates back to the comments we heard from 
Captain Robinson and Staff Sergeant Rose related to being able 
to clearly articulate what those skills and experiences are and 
as they relate to specific job openings.
    Each of our jobs are posted with specific requirements and 
experiences that we are looking for in candidates. And much of 
the process is an automated process, not an individual looking 
through that. So sometimes it is difficult to get a direct 
match when you are looking for key words or experiences on 
those resumes. And so, that does become a challenge for us.
    We have a number of openings right now in the U.S., and 
many of them are targeted around specific technical skills that 
we are hiring for. And sometimes we don't get access to the 
candidates within the U.S. as well.
    So those are some of the challenges that we are facing.
    Mr. Stutzman. Okay. And Ms. May, you talked quite a bit 
about the tax credit, and I would like to follow up a little 
bit more on that because I like where you are going with that. 
And one of the complaints that we have heard, though, is the 
intensive paperwork that goes along with that.
    I mean, can you touch on that, and anybody else on the 
panel touch on that?
    Ms. May. It is only two forms.
    Mr. Stutzman. Two forms?
    Ms. May. It is two forms. Two forms get added to the H.R. 
paperwork, and they complete those when they do their new hire 
paperwork. So when they are doing their W-4, they have these 
two forms. They answer a few questions, and based on that, we 
process and determine who is qualified and who is not. So it is 
not that complicated, not too bad.
    Mr. Stutzman. It doesn't sound too bad.
    Ms. May. No.
    Mr. Stutzman. Coming from an accounting background as well, 
that doesn't, I mean, sound terribly hard.
    Ms. May. No, now computing the credit can get a little bit 
complicated because there are different target groups and 
different levels, and the legislation continues to change. And 
right now, there is pending legislation to add these two new 
target groups.
    So that is what we keep up on. So that makes it a little 
complicated if you are trying to do it in-house and do it on 
your own. But----
    Mr. Stutzman. Okay. So doing it in-house might be more 
difficult?
    Ms. May. It may be because you would probably have to have 
a specific person dedicated to doing it and keeping up with the 
forms, sending them off to the appropriate State, then waiting 
for a certificate to come back and then processing the credit.
    Mr. Stutzman. Okay. If I am a small business owner and I am 
looking to use the credit--which I am a small business owner 
and didn't even know about the credit until becoming a Member 
of Congress and a part of this committee--what, do you find 
very many people interested in the credit, and how do they 
usually hear about it?
    Ms. May. They hear about it various ways. There are still 
businesses out there that aren't doing it, yet it is something 
that gets promoted. You know, of course, there are different 
Government representatives talking about it. President Obama 
has been talking about this, in particular. He hasn't actually 
said the Work Opportunity Tax Credit, but yet when you are 
talking about adding the veterans credit, it is specifically 
for that program.
    So, is there acknowledgment of the program out there for 
businesses? Yes. There are some businesses--retail, 
manufacturing, staffing, call centers--they are the ones that 
are more prevalent doing that program. But small businesses can 
benefit, too, because if they get one credit, if they are 
hiring one veteran, they could get a credit of $2,400, $4,800.
    Mr. Stutzman. And you mentioned increasing the tax credit. 
Any number that you have in mind?
    Ms. May. $5,600 for unemployed veterans and $9,600 for 
hiring unemployed veterans with a service-connected disability 
is what is out on the table right now.
    Mr. Stutzman. Okay. And it is currently $2,400?
    Ms. May. Correct. There is two veteran credits right now 
currently with WOTC, and it is for a disabled veteran and for 
somebody who has been on assistance and is also a veteran. So 
those exist currently.
    And then, a year ago, they actually had an unemployed 
veteran as a target group, and that went away as of last year. 
Which is what they are trying to bring that one back and then 
increase the credit.
    Mr. Stutzman. Do you find very many employers utilizing 
those credits?
    Ms. May. Definitely.
    Mr. Stutzman. Yes?
    Ms. May. And making thousands and thousands of dollars in 1 
year, in 1 tax year. So there are a lot of companies that are 
benefitting from the Work Opportunity Tax Credit program. It 
would be a shame for it to go away.
    Mr. Stutzman. Sure. Yes.
    What do we normally extend it? You said in your testimony 
that we have renewed it eight times since '96. So----
    Ms. May. Typically, it is a 2-year renewal.
    Mr. Stutzman. Yes.
    Ms. May. Last time, because they extended--they didn't 
renew it until December of the year that it needed to get 
renewed. So because of the big delay, they did 3 years. And so, 
that took us to the end of this year. And now the legislation 
is for another 3-year extension.
    Mr. Stutzman. Okay. Mr. Braley.
    Mr. Braley. Well, Mr. Chairman, I am certainly not going to 
let you upstage me on tractor discussions in my hometown of 
Waterloo.
    [Laughter.]
    Mr. Braley. And Ms. Litchfield, that steel-type tractor my 
father was driving was green. So let us just get that on the 
record.
    Ms. Litchfield. Okay.
    [Laughter.]
    Mr. Braley. One of the things that I was very interested in 
is your job title because you are listed as the manager of 
talent acquisition, and that got me thinking about the whole 
focus of this hearing. Because most employers that I talk to, 
when they are looking for someone to add to their workforce, 
they are looking for someone who is highly motivated, who has 
highly developed critical thinking skills, who has creative 
problem-solving experience, and who is disciplined.
    Does anybody disagree on this panel with what I just said?
    [No response.]
    Mr. Braley. And yet it seems like the two young men that we 
heard from earlier certainly meet that criteria. Most of the 
people who have experienced combat would not survive unless 
they had some level of experience with all of those criteria. 
Yet we have this enormous challenge of bridging the gap between 
military service experience and civilian workforce demands.
    So what can you share with us about those real world 
challenges that employers face in trying to identify workers 
who meet their job criteria and people like the two witnesses 
we heard from on our first panel, who are ready, willing, and 
able to work? How do we solve that problem?
    Let us start with you, Ms. Litchfield.
    Ms. Litchfield. Well, one of the challenges that I think we 
face is there is a number of job boards that are available for 
us to use to get access to military veterans and individuals 
interested in working for our organization and others. And I 
think if we could find a way to streamline how we get access to 
the right candidates for the right type of skills, that helps 
us then, in turn, get to a job opportunity for that individual 
and for us to get access to talent to help support our business 
objectives.
    And so, I think one of the challenges that we do face is 
there is a broad array out there for us to target and knowing 
which ones get you the best access to the right candidates. We 
have limited resources, just like any other organization does, 
and so we want to make sure we are spending our money around 
our advertising and our efforts targeted for recruiting on the 
right types of activities.
    So that would be one area that I think if we could come 
together and figure out how we get access to the right skills 
and capabilities to match up with the opportunities that we 
have to offer.
    Mr. Braley. I was kind of joking about that Rosetta Stone 
thing, but in reality, the Chamber is putting a lot of money 
into trying to help address this very problem.
    Ms. Litchfield. Right.
    Mr. Braley. And it seems to me that the DoD and Veterans 
Affairs Departments, working in conjunction with private 
employers, could do a better job of trying to bridge this gap.
    Ms. Litchfield. Absolutely.
    Mr. Braley. Major Studer.
    Major Studer. Sure. I think it is obviously multiple front. 
I have been impressed with the ESGR work. There is some resume-
building things that I think they have tapped into corporate 
America on. Send H.R. people in a non-interview mode to get 
soldiers over--most soldiers tend to be fairly humble.
    When you come through and say, hey, how am I going to 
compete for this job and orate the differences between what 
this guy is doing in the civilian sector and what I have just 
done for the last 12 months? I think there are a lot of things 
to trump. But navigating and cross that bridge, they talked 
about a lot of the previous testimony as kind of white noise, 
but that last 30 days----
    Mr. Braley. Death by PowerPoint?
    Major Studer. A little bit. But the last 30 days in country 
and then the first 90 days that you are back here, soldiers are 
going through a lot. I think there are bridges to be built 
between corporate America and not necessarily trying to reach 
individual soldiers. But they all have a chain of command, a 
peacetime chain of command.
    We knew 3,500 soldiers were coming back to Iowa in a fairly 
finite amount of time. I would like to say all corporate 
citizens were as proactive as we should have been, but it is 
kind of looking in building the bridge between I think the 
military chain of command. They all have full-time civilian 
staff.
    That is one of the first people soldiers go to. ``Hey, my 
unit administrator or my first sergeant, I need work.'' They 
know about it there. It is just how do we get ``I need work'' 
from the unit itself to a corporate? A lot of endeavors on how 
to bridge that, but it starts at the unit, and it ends at the 
employer.
    And that is where if we could have more, my opinion, more 
resources dedicated to--some companies don't know the Reserve 
units that are local to them. Some companies don't know how 
many veterans they currently have employed. It is increasing 
the awareness and starting the push.
    Mr. Braley. Well, and let us face it. We have three of 
Iowa's largest employers represented here, and the resources 
your companies have to commit to this type of an outcome can be 
different than a small mom-and-pop business that may be no less 
patriotic in their commitment to hiring veterans, but just 
doesn't have access to the same resources to help them make 
these choices.
    Ms. May.
    Ms. May. I would agree with Mr. Studer. I mean, the time to 
do it would be the time before they come back because there is 
downtime. My husband was deployed, and there is time at that 
point because of their downtime. I would think that would be 
the great opportunity to start working with them and talking 
about their resumes.
    I mean, the people that are going to need to get jobs, they 
do need to have the skills to be able to match up what is 
needed in corporate America versus what their military 
experience is, and I think that is key, and being able to do 
that before they come home. Because when they come home, there 
is a lot of challenges. Medically, there can be a lot of mental 
things going on.
    So if you try to do those things before they come back. 
Plus, I think that would give them peace of mind. Having a job 
and being employed is one of the most important things when you 
come back.
    Mr. Braley. Mr. Carson.
    Mr. Carson. Yes. So I would say that some of the challenges 
that we heard from the first panel are no different than those 
that I faced 20 years ago when I got out of the Army, trying to 
translate military experience and training and schooling into 
the civilian workforce.
    What, of course, amplifies that today is our economy. And I 
think that it would be very helpful to continue to have these 
public discussions maybe in town hall forums on a drill weekend 
out at a Reserve center and get some of the larger employers 
there, where we walk through the facilities and H.R. 
representatives, hiring managers are able to see our soldiers 
in action, in drill, and understand what they do and then have 
a town hall discussion about that publicly.
    Mr. Braley. Well, and you and Ms. Litchfield both talked 
about the very important component of your companies' 
businesses, which is small business suppliers who hire 
veterans.
    Mr. Carson. Yes. Exactly.
    Mr. Braley. And I know, Ms. May, your company works with 
many small businesses, and not every veteran wants or is 
prepared to go to work for someone. And I think one of the 
unaddressed issues that we need to spend more time talking 
about is how we provide veterans who want to start their own 
small business the resources to be successful when the rate of 
failure for small business is so high and what types of 
different programming we need to be offering them so they can 
achieve their dreams of being a self-employed veteran some day, 
too.
    I see my time has expired, and so I will yield back, Mr. 
Chairman.
    Mr. Stutzman. Okay. Thank you very much.
    I guess I would just like to ask all of you on this 
particular panel. I mean, you heard the challenges that Mr. 
Rose and Mr. Robinson are having, and I know there are many 
more men and women that have the same challenges. But would, 
just asking as maybe a committee here, just if you could talk 
with them. And Mr. Rose mentioned challenges with his resume 
and I know Mr. Robinson is looking for a job--any ideas?
    Because I think that with their commitment to what they 
have done for our country and also your commitment to what you 
have done for job creation in this part of the country is 
crucial. But also connecting people is really what a lot of 
this is about.
    So I want to say just thank you to all of you for what you 
do do. Because I know we are going through some very difficult 
times, and your testimony has been very helpful. Appreciate the 
comments on tax credits and the challenges of connecting 
people. We are just going to continue to have to work at it, 
and I believe that we can be successful.
    So, with that, we will excuse all of you. Thank you again 
for coming.
    And at this time, we would like to welcome our third and 
final panel. Our third group of witnesses includes Colonel 
Benjamin Corell with the Iowa National Guard. This would be 
personal comments with Mark Hennessey, which I will explain in 
a little bit.
    And then Ms. Teresa Wahlert with Iowa Workforce Development 
and Mr. Anthony Smithhart with the U.S. Department of Labor.
    Of course, all of these will have 5 minutes. We had some 
issues logistically with Mr. Hennessey's testimony. So he is 
appearing on his own behalf today.
    Mr. Hennessey. Yes, sir.
    Mr. Stutzman. Which we appreciate you being here, and we do 
want to hear from you personally.
    So we will begin with Colonel Corell, and thank you for 
your service, and we recognize you for 5 minutes.

   STATEMENTS OF COLONEL BENJAMIN CORELL, COMMANDER, SECOND 
BRIGADE COMBAT TEAM, IOWA NATIONAL GUARD, JOHNSTON, IOWA; MARK 
HENNESSEY, IOWA COMMITTEE FOR EMPLOYER SUPPORT OF THE GUARD AND 
    RESERVE, JOHNSTON, IOWA; TERESA WAHLERT, DIRECTOR, IOWA 
WORKFORCE DEVELOPMENT, DES MOINES, IOWA; AND ANTHONY SMITHHART, 
IOWA STATE DIRECTOR, VETERANS EMPLOYMENT AND TRAINING SERVICE, 
                    U.S. DEPARTMENT OF LABOR

              STATEMENT OF COLONEL BENJAMIN CORELL

    Colonel Corell. Yes, sir. Chairman Stutzman, Congressman 
Braley, I am Colonel Ben Corell. I am the commander of the 
Second 34th Brigade Combat Team just returned from service in 
Afghanistan, brought back about 3,100 troops to Iowa here in 
the July time frame.
    I am from a small town, too, and I take things in bite-
sized chunks, and up in the Strawberry Point area. Congressman 
Braley knows this. But I look at what is the problem that we 
are trying to identify here?
    And from Ben Corell's perspective, I think we are looking 
at Reserve and National Guard employers. And that is really my 
framework here. I think that includes veterans, but I think it 
is different when we talk about those coming off active duty. 
They have ended their service. They are reentering the 
workforce with really an active duty background behind them.
    As I look at what we have done in the Reserve and National 
Guard in the last 10 years, it is different because we continue 
to go back to the well. We continue to ask our employers to 
sacrifice as we continue to mobilize our Guard and Reserve for 
contingency operations, whether it be combat, peacekeeping, and 
in some cases, we have domestic responsibilities that we have 
within the borders of our own States.
    So I look at that a little bit differently. It is still the 
same problems that we have as far as how do we keep those 
soldiers employed? And how do we incentivize it to those Guard 
and Reserve employers that says I am going to go through that 
sacrifice?
    Because at some point, the patriotic aspect of it loses its 
attraction. You have to put some type of incentive that says I 
clearly want to keep this not because of all those other things 
that we talked about already in this hearing today about 
discipline and hard work, but because it is now costing my 
business something.
    I will give you a little bit of my background. I have 
deployed four times. The first time that I deployed, well, my 
first 15 years in the Reserve components, I did just like the 
commercial said, 1 weekend a month, 2 weeks in the summer. And 
I went to the schooling requirements that I had.
    In 2000, I had the opportunity to deploy into Saudi Arabia 
as part of Operation Southern Watch. We secured Patriot missile 
batteries. I thought that was my one and only opportunity to 
deploy onto active duty outside the United States and serve my 
country. So I took that with pride.
    I came back home. And that fall, 9/11 happened. At that 
time, I owned a small business. My brother-in-law and I were in 
partnership together. We had a BP-Amoco tank wagon business up 
in Strawberry Point, Iowa.
    I deployed again in 2003-2004 to do a peacekeeping mission 
in the Sinai. Came back. 2005, I deployed again as a battalion 
commander to Iraq. We got extended. I was gone 1 week short of 
2 years.
    When I came back to my small business, my brother-in-law 
said to me, ``You know, this isn't what I signed up for. We 
built the business for both of us to operate and make a living 
off of. It no longer fits my business model.'' So I said I will 
go find something else to do.
    But I think that is reflective of others who are small 
business owners or who work for those small mom-and-pop 
companies that only have a handful of employees. When one is 
gone, it is a significant impact on that business.
    And then I just returned from my fourth deployment as a 
brigade commander into Afghanistan.
    Our Nation's military has sacrificed a lot in the last 10 
years. One percent of our population has served in uniform. 
Take that out of the Reserve and the National Guard, I don't 
believe that we could have been successful as a military 
without the Reserve and National Guard with what we have added 
to the fight, just based on my experience. And I think most of 
my brothers on active duty would echo those same comments.
    I think that we have spent a lot of time working very hard 
on building resume-writing capabilities. We do job fairs for 
our soldiers. We have a great team of ESGR representatives. A 
lot of volunteers that go in, and we do lunch and learns. We do 
those BOSS lists that Congressman Braley talked about.
    But I think it has got to go beyond that. I think we have 
to identify how do we make an incentive for an employer to hire 
a Reserve and National Guardsman. I think the veterans piece of 
it has to be included in that, but I think it is even more 
difficult when we talk about Guard and Reserve, who continue to 
be drawn away for different requirements.
    At some point, the well starts to go dry. And I think as we 
lay it out, if everything is equal, if I am that hiring board 
member, if everything is equal, I am not sure that being a 
member of the Guard and Reserve is a bonus when I look at that. 
Even though they may have some additional leadership qualities, 
that I don't really know how I quantitate that because I think 
we have discussed that already.
    But if everything else is equal, I am probably going to 
lend the vote to this person that isn't in the Guard and 
Reserve because I know they are going to be there every day, 
and I know that I can count on them to be there. With what we 
have done with the Guard and Reserve in the last 10 years, we 
can't always say that.
    So whether that is some type of tax incentive, whether that 
is a grant, whether that is a forgivable loan, I think that is 
where the focus has got to be so we have some type of a reward. 
In my career, I worked in recruiting. And I know that when 
times get tough, everything is the same, people are going to 
join the Guard and Reserve because of patriotic commitment, 
because it is in their family lineage, or it is just something 
that they always wanted to do.
    Once you run out of those folks, then everything equals 
out, and you have to have some sort of incentive for those 
people to come in and say, well, I want to go to college, what 
can you give me? I want to help put food on the table, what can 
you give me? What incentive do I have to do something different 
to join the Guard and Reserve, compared to going and getting a 
part-time job somewhere else?
    And that is really what I see is the problem, how we 
identify that piece. I think that is all I have. I have 
submitted my written comments, and I will stand by for your 
questions.
    Thanks for the opportunity here.
    [The prepared statement of Benjamin Corell appears on p. 
54.]
    Mr. Stutzman. Thank you.
    Mr. Hennessey, we will go ahead and recognize you just for 
some personal comments, if you would like?

                  STATEMENT OF MARK HENNESSEY

    Mr. Hennessey. Absolutely. Thank you, gentlemen.
    My name is Mark Hennessey. I live in Robins, and I am just 
here as a concerned civilian.
    My father was an Army vet. My father-in-law was a Navy vet. 
I have numerous friends that have served and several friends 
that are still active members of the Guard and Reserve, and 
just somebody that has talked on both sides of that with local 
employers in the Cedar Rapids/Iowa City area, as well as 
veterans, and how to bridge that gap and get those two parties 
together, help them understand the needs that the employers 
have.
    And as we talked about translating that military resume to 
the civilian world, doing things that expand the initiatives, 
such as the ESGR initiative, such as the BOSS lists, those 
things like that. And so, it is just something that I hear 
echoed throughout the community.
    I am very involved in a lot of networking events. So I talk 
with a lot of people, and that is something that I regularly 
hear is how do we bridge that gap?
    [The prepared statement of Mark Hennessey appears on p. 
54.]
    Mr. Stutzman. Thank you.
    Mr. Smithhart, you are recognized for your testimony.

                 STATEMENT OF ANTHONY SMITHHART

    Mr. Smithhart. Thank you, Congressman.
    Chairman Stutzman, Ranking Member Braley, and Members of 
the Committee, thank you for this opportunity to testify before 
the Committee about the work we are doing at the Department of 
Labor to address important issues of decreasing unemployment 
rate for veterans, National Guard, and Reservists.
    We also appreciate the--with over 240,000 veterans living 
in a State, it is critical that we provide them with the 
services and support they need to find and obtain good jobs. My 
name is Tony Smithhart, and as Iowa State director for the 
Department of Labor's Veterans Employment Training Service, I 
am dedicated to helping our veterans and servicemembers 
returning and achieve that goal.
    VETS proudly serves veterans and transitioning 
servicemembers by providing resources and expertise to assist 
and prepare them to obtain meaningful careers, maximize their 
employment opportunities, protect their employment rights. We 
do this through a variety of nationwide programs that are an 
integral part of Secretary Solis's vision of good jobs for 
everyone.
    I would like to begin by briefly discussing some of the 
programs along with initiatives to assist America's veterans in 
getting to or back to work from, and then focus specifically on 
the information from Iowa that you requested.
    The first program I would like to highlight for you is the 
Jobs for Veterans State program. Under this program, the 
department offers employment and training services to eligible 
veterans by allocating funds to the State workforce development 
agencies.
    The Jobs for Veterans program funds two programs, the 
Disabled Veterans Outreach Specialist and the LVERs. 
Congressman Stutzman, you had mentioned and asked I think it 
was Captain Robinson about that in Iowa. In Iowa, we absolutely 
have the two programs, but it is primarily DVOPs, and we call 
them veteran representatives. We put almost all of our 
positions are DVOP. So when they come in, they see a DVOP, they 
provide intensive services.
    So if he is being seen by one of our veteran 
representatives within the workforce, he is being case managed 
or receiving intensive service, effective October 3rd. But we 
call them vet reps, and there is a delineation, but they are 
DVOPs because we only have one and a half LVERs. The rest are 
DVOP. So absolutely we do that.
    Last year, nationwide, the Jobs for Veterans State grant 
provided services to nearly 589,000 veterans, 201,000 of those 
found jobs. To meet the needs of homeless veterans and help 
reintegrate them into the workforce, VETS administers the 
Homeless Veteran Reintegration Program. Through HVRP, the 
department provides competitive grants to States and local 
workforce investment boards, State agencies, local public 
agencies, and private nonprofits.
    HVRP grantees provide an array of services utilizing a 
holistic case management approach, directly assists homeless 
veterans, provide training services to help them successfully. 
Program year 2009, we had over 14,000 homeless veterans 
participating in the program. Ninety-six grants, 8,470 were 
placed into employment. The 2010 numbers are still not 
available.
    Here, in Iowa, we are very fortunate. We have two programs, 
both of them located in the Iowa City area, with services being 
provided in the Iowa City/Cedar Rapids and in the Quad Cities. 
The Iowa City one is really new. This is their first year. It 
started August 5 th. And the other one, the Quad Cities, is 
very successful and love to show you that program if you would 
like to take time to tour the facilities and meet with the 
veterans. A really good program.
    I think you can all read, and my time is running low. So I 
will go to the information you asked about Iowa. You requested 
information about veterans in Iowa. While some specific data is 
unavailable, we have nevertheless been able to provide current 
information.
    As you know, Iowa operates the Public Labor Exchange and 
funded by the Department of Labor to assist veterans. While it 
is available to all populations, veterans are given priority 
within the services. The services and assistance offered range 
from employment preparation, comprehensive employment placement 
services, to intensive services through case management.
    The levels of education, in the past year, 19,687 veterans 
received services through Iowa Workforce Development. Of those, 
1,074 were less than a high school education; 9,000, or 45.7 
percent, had a high school degree; and 31 percent had above 
that or a certificate.
    Talk about the average wage and the length of unemployment. 
We are not able to provide that, as far as how many--if there 
is a correlation between the age and the number unemployed.
    The USERRA cases you could read there. Since 2007, you have 
seen a decline. One of the things, we work really hard with the 
Employer Support for Guard and Reserve, the Chamber of 
Commerce, the employer groups, the gentleman from Principal, 
and Kelly. We do presentations to employers to really talk 
about what the law requires and to try to be proactive versus 
reactive, as far as taking care of issues.
    So our cases have gone down. Now one of the anomalies, of 
course, is the big deployment. So coming back, we will see if 
all our work has paid off. So far, it has. Our number of cases 
are down.
    Right now, I have only got one active case. So good things 
are happening. So, any questions?
    [The prepared statement of Anthony Smithhart appears on p. 
56.]
    Mr. Stutzman. Thank you.
    Ms. Wahlert.

                  STATEMENT OF TERESA WAHLERT

    Ms. Wahlert. Thank you.
    My name is Teresa Wahlert, and I am the director at Iowa 
Workforce Development.
    I am not going to read through my testimony. I am just 
going to recognize a couple of things that we are doing at 
Workforce Development.
    I know, of course, you have heard a lot from the 
representatives here on any number of issues, which, of course, 
are all contained in my written testimony. But the one area I 
would really like to talk about here today is the area of new 
deployment of technology that Iowa Workforce Development has 
been involved in for the past 6 months or so.
    One of the things we recognized at Iowa Workforce 
Development was the issue of connectivity between a veteran or 
a National Guard/Reservist and the working world and how to 
really connect people with jobs. And so, we thought that it 
might be a great opportunity to really go out and visit with 
the National Guard as to how do they really connect their 
servicemen and women back into the community when they come 
home?
    And it is through those discussions that I am proud to say 
that on the 27th of July, we announced the first in the Nation 
partnership with the Iowa National Guard. With our access point 
technology, we are going to deploy services to veterans and 
returning Guard members in all of their 43 armories. So we are 
really trying to put access to services onto the campuses and 
in the areas where returning soldiers are most comfortable.
    I am also proud to say that, as of this past Friday, we 
have deployed 261 of these access points throughout the State 
of Iowa. We have over 850 new workstations that people can use. 
So not only at the armories, but in all of these other 
locations throughout the State of Iowa.
    We have a current list of about 120-some to install here in 
the next 2 or 3 weeks, and we have a list of interested 
partners outside of the National Guard, which include over 900 
more partnerships throughout the State of Iowa for access to 
this technology, where we have things like job openings, things 
like career services, things for unemployment, opportunities 
for businesses to also see where there are services there for 
them.
    Although we are a small State and have a small grant, we do 
deploy our DVOPs into all of our integrated centers. We have 16 
integrated centers where we have specialists in all sorts of 
areas to assist and help not only all job seekers, but 
specifically, as Mr. Smithhart mentioned, veterans and National 
Guard folks.
    We have brochures that go throughout the State. I have some 
of them out at the front table. And it lists, of course, on the 
back of the brochure where each one of our 16 One-Stop shops 
are. The important thing about this is we have extended our 
hours so that people on their own time frame can then access 
our specialists, either by a toll-free call or by a live chat 
opportunity session through a computer.
    Our hours now are 8:00 a.m. to 8:00 p.m. on Monday through 
Friday, and 10:00 a.m. to 2:00 p.m. on Saturdays. And it is 
interesting, although this is a pilot program, we are finding 
that most of the interest and where we see our volumes 
increasing ever more are on Saturdays, a day we have never been 
open in the past until about the last 3 months.
    So we are really involved with this intensive deployment of 
services through technology, with also making our individual 
specialists open and available for questions, long hours and on 
Saturdays. Currently, we have converted 9 of the 43 armories 
that we have in the State, and within the next 2 weeks or so, 
we will have the rest of our armories converted to our new 
technology.
    The reason this is important is because we are putting this 
technology and this access onto the Federal system, and so the 
National Guard actually had to carve out some broadband 
capacity in order for us to be able to deploy our services, 
which they did successfully accomplish in the last couple of 
weeks. And so, it will only take us about another 10 days to 
get through to each one of the other armories.
    I am proud to say that our folks have worked very hard with 
National Guard and ESGR and many other organizations that do 
help our returning soldiers to get a connection back in the 
working world, and we will continue to try to do that 
throughout the rest of the time that I intend to be working at 
Iowa Workforce Development.
    Thank you.
    [The prepared statement of Teresa Wahlert appears on p. 60.
    Mr. Stutzman. Thank you.
    A couple of questions, and I will start with Colonel 
Corell. Could you talk just a little bit about your veterans? 
How many are unemployed, who they are, the challenges that they 
have, and what they are hearing as they are out pursuing work.
    Colonel Corell. I will do the best I can, and when I can, I 
will pass to Mark. He has, I think, got some of that data for 
me as well.
    There was three specific questions that when I got this 
were kind of contained of what your question is right now. 
Current level for unemployment, members in the Iowa National 
Guard, and this goes back as an aggregate of Army and Air Guard 
collectively, the most recent data we have is in August, which 
probably isn't a good representation of those of the brigade 
combat team that just came back.
    At 7 percent unemployment in August, I believe that what we 
are tracking today, for those members of the brigade combat 
team that just came back, we had 630 that were unemployed prior 
to the mobilization and 721 that we are tracking post 
mobilization, post deployment that are unemployed, looking for 
work. So somewhere in the figures of before deployment, 15 to 
20 percent unemployment to now 20 to 25 percent unemployment 
within that small group.
    Reasons why? I think probably, you know, I think the 
increase, just like Captain Robinson indicated, was we had a 
lot of people that were on duty that had a job for a couple of 
years prior to the mobilization. And we knew the brigade was 
going to go out the door within this window. So with that comes 
the resources and Federal funding to bring more people on to 
get the organization ready to go out the door. So I think that 
is a significant number.
    I think when we go through the Yellow Ribbon process--we 
have completed Yellow Ribbon 1 events across the brigade combat 
team. I think as we go into the Yellow Ribbon 2, I think that 
as we track that information, I think we are going to be a 
little bit healthier than what these numbers indicate because I 
believe that, in some cases, people are going to go back to 
school because of the benefits that they have earned.
    It is in their best interest, number one, to get the 
education. But number two, with the incentives from the GI 
bill, post-9/11, they can get paid a pretty decent wage just to 
go to school as well. So I think that will mitigate some of 
that and get us through these difficult times that we are in, 
plus make them more marketable with a higher education as well.
    Did I answer what you were looking for?
    Mr. Stutzman. Yes, and Mr. Hennessey, any personal 
observations?
    Mr. Hennessey. Just from personal observations, what I am 
hearing is that individuals that are coming back, some of them 
feel that they are underemployed now. That they had a command 
role or a leadership role in the Guard and Reserve or active 
duty and have come back and have decided, no, this is not--my 
civilian job is not really what I am looking for right now. And 
then, again, it is how to translate that experience and find 
that right opportunity.
    We see a lot of opportunities. One of the things that I 
have seen out there, we talked earlier about job boards. One of 
the things, just for future reference, if you look at a job 
board called ``indeed.com'' and do a search just on your local 
area, I think you will be amazed at the number of openings that 
are out there.
    So there are jobs out there for individuals that really 
want to work. The problem is matching those up with those 
individuals that are looking for the work and then getting the 
employers to find those individuals.
    Mr. Stutzman. Okay. Mr. Smithhart, how many veteran job 
placements did Iowa State Workforce complete in the last year, 
roughly?
    Mr. Smithhart. I did not bring that information with me, 
but I will provide it to the Committee.
    Mr. Stutzman. Okay. Okay, that is fine.
    And then, Ms. Wahlert, what--and I will maybe reference 
this back to Mr. Smithhart. And I guess one of the comments 
that Captain Robinson mentioned about his friend the welder, 
and I think any time whenever men and women go into the 
military and they come out, obviously, we want them to better 
themselves and move on to better employment.
    But the welder situation, did that cause any concern with 
you about the situation, him coming back and not having a job?
    Mr. Smithhart. Absolutely, sir. A lot of the information 
that Captain Robinson and the staff sergeant said really hit 
home because every day that is what we deal with. You know, we 
really want to help those folks.
    And especially in the Des Moines area, for that welder 
person, we have John Deere there that is hiring. They probably 
have 40 or 50 openings. I don't know if Stacy could tell me. In 
the Ankeny office area, we have a lot of openings and work 
really closely with them to do that.
    So it is really--there is a shortcoming in ours, within the 
Department of Labor and Workforce, of trying to match those 
individuals and for them to identify their skills and make sure 
that that match is what the employer needs. Because there are 
seats out there. We just have to be able to get that person.
    Now we are working with our current initiatives. In the Des 
Moines area, we are going to do a State-wide job fair on 
November 8th with the Employer Support for Guard and Reserve. 
And to start that, on November 5th, we are going to have an 
employment program that will teach people how to present 
themselves, how to demilitarize their resumes.
    We are going to bring in--with the Employer Support for 
Guard and Reserve, we are going to bring in civilian employers 
to do mock interviews that afternoon to help those individuals 
do that. We are going to follow that up with a seminar on how 
to market yourself at a career fair, at a job fair. And then we 
are going to have the big job fair November 8th.
    And it is a State-wide one. So it is going to include from 
all, from Dubuque. You have employers from all over the State. 
Right now, we have 50 employers.
    Now the key is, as Colonel Corell and a lot of other 
individuals have said, it is getting the individuals to attend. 
We did the series of these seminars around the State. Did one 
in Waterloo on September 13th. We had to cancel it. We didn't 
have enough participation.
    We just canceled one this week in Sioux City, again because 
we only had two individuals that signed up in that area. The 
ones that have come, they have been very happy. We have tested 
it, refined it. And so, it is really--the captain and the staff 
sergeant really hit home. It is to get the individuals that 
could use it and benefit, to get them to actually produce 
because unlike the active duty folks, these folks don't get 
paid to be there.
    And Colonel Corell can attest, on a weekend drill, there is 
a lot of activities going on there that can we fit this in? 
That is the command's thing, and I don't know. So there is a 
lot going on. It is just--it is really we are missing getting 
it to the right individuals.
    Mr. Stutzman. Sure.
    Mr. Smithhart. But the employers are there. The soldiers 
are there to match them, I don't know.
    Mr. Stutzman. Sure. Okay.
    Mr. Braley.
    Mr. Braley. Well, thank you, Mr. Chairman.
    One of the things that I need to do is embarrass Colonel 
Corell at this point because he has been a great asset to me 
during my entire period serving in Congress. But one of the 
things that was not mentioned was that all three of his sons 
are members of the Iowa National Guard and have deployed and 
served under their father in either Operation Enduring Freedom 
or Operation Iraqi Freedom.
    And that is an extraordinary part of the legacy of Iowa's 
proud military heritage. I can't think of any place better to 
recognize that service than here in the home of the five 
Sullivan brothers.
    And Mr. Chairman, on Memorial Day weekend of 2007, CBS News 
devoted its entire 60 Minutes program to the extraordinary work 
of the Iowa National Guard in a program called ``Fathers, Sons, 
and Brothers'' that won an Emmy. And I think that it was a 
great way to honor the incredible sacrifice that all of our men 
and women in uniform make. But we are very, very proud of our 
National Guard, and I just wanted to make that point.
    To follow up on another point you raised, Colonel, and that 
is the extraordinary burden placed on our Guard and Reserve 
units even when they are not deployed in combat. And all you 
have to do is look at my brief career in Congress, and I just 
was thinking about this.
    February of 2007, I was sworn in in January. We had an ice 
storm that cost 500,000 people power in this State, and the 
Guard was out helping. I worked with them. Then you had the 
demobilization from Iraq, and all the welcome home ceremonies 
and all of the same things we are dealing with now after this 
Afghanistan demobilization.
    2008, in May, we had the worst tornado in the country here 
in this district, followed by the worst flooding in our State. 
And the Guard was active and involved in that. June of 2010, 
more flooding in our State, and the mobilization to Afghanistan 
with an extraordinary burden on the Guard. And then, this year, 
we have the demobilization and more record-setting flooding in 
our State.
    And I think that is a microcosm of the challenges that you 
were talking about when employers are constantly being stressed 
on their own level from all of these natural disasters. They 
have their own workforce being disrupted, and I think we don't 
talk enough about these challenges and the extraordinary work 
that employers do who continue to live up to their commitment 
under USERRA.
    So, with that as a backdrop, how does that impact the work 
you and the other people at Camp Dodge are doing to try to keep 
this cohesion together?
    Colonel Corell. I think the employers that we work with--
through the dedication of the ESGR folks, the dedication of the 
leadership of the Iowa Guard--doing the outreach to inform and 
educate, I think it has bought us a lot. My concern is at some 
point, we are going to run out of that goodwill, and I think we 
are right on the edge of that, if we are not already past it.
    And I think it comes back to there has got to be some 
incentive, and whatever that is, whether it is small, it 
doesn't matter. But something that you can go in and leverage 
from an employer standpoint of those people that are out 
seeking veterans or National Guard and Reserve soldiers, 
looking to fill those vacancies in the workplace. There has got 
to be some leverage tool, and I will let you guys figure out 
the nug work on it. I can't tell you what that incentive is, 
but I think it has got to be something.
    Day to day, we are out working it. It is just like those 
soldiers that continue to refine their resume. You can only do 
that so long. You can only send it out so many times before you 
reach the point of frustration. You can only go to so many job 
fairs. There has got to be a way to stick a pole in there and 
move yourself up the ladder of potential candidates, and the 
way to do that is to make some sort of incentive to do it.
    So is it hard work? Are we concerned about it? Every day we 
are. And that is why there is so much effort that has been put 
into our relationships with our employers, relationships with 
the Workforce Development folks to bring those access points 
into our armories. Because we know how critical it is because, 
number one, just because of the cost, you take the cost 
effectiveness of the Guard and Reserve, when you look at the 
cost of manning a full-time military.
    And you all know that better than what I do. But we have to 
have a way for those National Guard/Reserve component soldiers 
to feed their families in the interim when we don't need them 
to be called up for some type of a peacekeeping mission, combat 
operation, or a domestic need here at home. And that is really 
what we are focused on and why we are here today and why this 
is so important to us.
    Mr. Braley. Well, I appreciate that, and we have talked 
previously about the Work Opportunity Tax Credit. And one of 
the things that I have introduced in Congress is a bill called 
the Combat Veterans Back to Work Act, modeled on the previous 
back to work incentives we had for employers to hire unemployed 
workers by giving them a break on their FICA taxes on the front 
end if they hire an unemployed worker, in this case an 
unemployed veteran, and then if they keep them on the payroll 
for a year, another modest, but important incentive so that we 
get more longevity out of those initial hires.
    And I think you are right. It is not going to make somebody 
decide to hire an employee, but if they are thinking about 
expanding their workforce, and we give them added incentives to 
get an unemployed veteran back to work, I think it can make a 
difference.
    Colonel Corell. I agree, and I think the panel number two 
that had our friends in the corporate world here, they touched 
on it a little bit. Once they get those either former active 
duty military veterans in the door or the members of the Guard 
and Reserve in the door, they are great employees. And they are 
so good and so valuable to them, they are going to give them a 
pay offset when they do get called back to active duty that 
they will match whatever money shortfall there is between what 
they are making in the military and what they would make at 
their civilian job.
    Give us the opportunity. I think that is what we are saying 
is get us the incentive to get us in the door. We will sink or 
swim on our own merits, but we are looking for a leverage 
point, an incentive to get us in the door. And that is the 
difference that I am talking about.
    Mr. Braley. Thank you.
    Ms. WAHLERT, I want to thank you for the tremendous work 
that your office is doing to try to address this. And you 
talked a little bit about some of the unique challenges a State 
like Iowa has.
    And you have talked about how you are deploying new 
technology and trying to make it available in more service 
areas. One of the things you talked about was the deployment of 
261 workstations. And since we have 45 armories and 16 veteran 
representative offices, can you give us some examples of where 
those other workstations might be?
    Ms. Wahlert. Let me just--I would love to, Congressman. Let 
me just first clarify that 261 are new offices, new locations. 
We have over 800 workstations within each one of those new 
opportunities.
    For instance, we have also partnered with the Veterans 
Affairs offices. They are in every county seat. We are in 
courthouses. We are in halfway houses. We are in correctional 
institutions. We are at the three regent colleges. We are on 
many private university and college campus in the State of 
Iowa. We are in 13 of 15 community colleges and all of their 
campuses.
    We are at Goodwill. We are at faith-based organizations. We 
are at any place that can have public traffic other than the 
National Guard because we understand the special nature of the 
National Guard with soldiers and their families.
    So the thought here is the next place we are going to try 
to deliver the technology is through all of the high schools 
within the State of Iowa. There are 359 high schools. And the 
point of this is to, first, be able to have access to services, 
but to also have people understand what the expectation is of 
the corporate world when they go into the corporate world, 
whether it be out of high school or whether it be coming back 
from Afghanistan.
    The other important thing I just wanted to mention that 
seems to be ironic. I am from the business world, and so I 
bring kind of panel two with me when I came into this 
opportunity. And you would be amazed over the last 3 or 4 
months. I have had new incentive business outreach by all of 
Workforce Development, and we have had a number of calls from 
small and medium-sized businesses who are crying for welders 
throughout the State.
    And who are crying for a lot of the kinds of technical 
programs and project management that you would assume that a 
returning serviceperson would have in their resume. And many of 
these companies have never thought of or considered hiring a 
veteran.
    And so, of course, we are now instituting an outreach from 
our office to help businesses, and the first folks we call, of 
course, are veterans within that geographical area. We can also 
understand where they are from, from their zip code area. But 
one of the things you really always need, and we have discussed 
this with the Guard on several meetings, and that is you need 
to have that continual hook back to the veteran, back to the 
Reservist so that when they have their downtime, when they are 
coming back into the community and reenergizing themselves, 
sometimes there is just not the effort to go to an office or to 
get in the car and go somewhere.
    And part of the process we do is we make sure everybody has 
an email account. And so, that if it is midnight or if it is 
2:00 a.m. or whenever the right time is for that person to go 
and to look at jobs or to work on their resume or to actually 
see what is new for them in their area, we have a way to 
connect with them. All those email services are free, just like 
our toll-free number and our live chat options as well.
    And so, the connection we make is really important. My goal 
is by the end of the year, Congressman, to have it so that 
there is no city or town in the State of Iowa that you drive 
through that there are not access points in.
    Mr. Braley. Great. Thank you very much.
    And I will yield back.
    Mr. Stutzman. Okay. Thank you.
    This concludes our oversight hearing today. I just want to 
say in closing to our Iowa veterans that the House Committee on 
Veterans' Affairs is committed to this issue, and I know 
Congressman Braley and I especially are very interested and 
want to help make sure that any veteran who wants a job gets 
one.
    And I know it is a tall order, but our chairman, Jeff 
Miller from Florida, has said that he wants to reduce 
unemployment for veterans to less than 5 percent or half of 
what it is currently. So that is a tall order, but I believe, 
working together, we can all accomplish that.
    And one final thing, and I know that the Colonel will 
appreciate this. Last week, the House passed a bill that was 
introduced by Congressman Tim Walz of Minnesota that will allow 
retirees of the Guard and Reserves to be called veterans.
    You know, it seems like a long time coming. But we passed 
that in the House, and I know while this bill doesn't bestow 
any additional benefits, I definitely believe that it is worthy 
and needs the recognition. You all deserve the recognition to 
be called veterans for your service.
    Mr. Braley, any closing remarks?
    Mr. Braley. No, I just want to comment on that last 
statement because former Sergeant Major Tim Walz from Minnesota 
worked very closely with me and other Members of Congress to 
get much-needed benefits for the Iowa National Guard when they 
came home from Iraq. And because of his real world experience 
in that capacity, he had an extraordinary voice, and we were 
very proud that we were finally able to make that happen last 
week.
    But I do also want to apologize to Mr. Smithhart and Mr. 
Hennessey. Because of the lack of time, and I know the chairman 
has to catch a flight, I did want to highlight a very important 
event that is coming up that you mentioned, Mr. Smithhart.
    And that is there is a State-wide Hiring Our Heroes job 
fair in Des Moines on November 8, 2011. It is going to be at 
Hy-Vee Hall from 10:00 a.m. to 4:00 p.m., and the U.S. Chamber, 
the Greater Des Moines Partnership, the Employer Support of 
Guard and Reserve, and DMAC and others are going to be there. 
And I hope that this is the first step in a very long process 
to address some of the concerns we have talked about here 
today.
    Thank you both for your willingness to be here today and 
share your testimony with us, and to all the great witnesses 
who joined us today.
    And I will yield back.
    Mr. Stutzman. Okay. Thank you.
    I want to thank everyone for being here today--to the 
witnesses for your testimony, to those who have served, thank 
you for your service. Thank our staff as well for their hard 
work in helping set this meeting up.
    And looking forward to having Mr. Braley in Fort Wayne. You 
will find the same hospitality, I am sure, in Indiana as I have 
here in Iowa. And I have enjoyed being here, and it feels very 
much like home.
    So I want to ask unanimous consent that all Members have 5 
legislative days to revise and extend their remarks.
    Hearing no objection, so ordered.
    Mr. Stutzman. Thank you again, and this hearing is now 
adjourned.
    [Whereupon, at 11:55 a.m., the Subcommittee was adjourned.]



                            A P P E N D I X

                              ----------                              

              Prepared Statement of Hon. Marlin Stutzman,
             Chairman, Subcommittee on Economic Opportunity

    Good morning. I am delighted to be here in Waterloo with your 
Congressman, Bruce Braley and I thank him for bringing us to his 
district. My name is Marlin Stutzman. I am the Chairman of the House 
Veterans' Affairs Subcommittee on Economic Opportunity, and represent 
Indiana's 3rd Congressional District in northeast Indiana. I have Iowa 
ties- my great-grandparents lived in Washington, Iowa, and are buried 
there. My aunt was born on Independence Day in Independence Iowa, where 
she lived alongside my grandparents. My district is very similar to 
Iowa's first Congressional District. We are very proud of our 
Midwestern values and proud of America. In northeast Indiana, we are 
especially proud of our 48,000 veterans who have served our Nation. I 
am honored to serve as their voice in Congress and serve alongside 
Ranking Member Bruce Braley, who is a great member, veterans advocate, 
and a friend.
    We are here today to here from Iowans about the employment 
difficulties facing far too many members of the Iowa National Guard, 
the Reserves, and those returning from active duty. While the 
unemployment rate for all Iowa veterans in September was 5.8 percent, 
data from the Bureau of Labor Statistics show that 35.6 percent of 
America's Gulf Era II veterans ages 20 to 24 were unemployed, while 8.8 
percent of Gulf Era II veterans ages 25-54 were unemployed.
    More shocking is anecdotal information that as much as 30 percent 
of returning members of the Guard and Reserves do not come home to a 
job. Clearly, we need to find ways to reduce all of those numbers. The 
House Committee on Veterans' Affairs has taken a first step toward that 
end last week by passing H.R. 2433, a bill that would provide up to a 
year of GI Bill benefits to unemployed veterans between the ages of 35 
and 60. The bill now goes to the Senate and we hope to get the bill to 
the President by Veterans Day along with several other improvements to 
veterans benefits.
    Again, I am delighted to be with you today and I will now yield to 
the gentleman whose office is next to mine, the distinguished Ranking 
Member of the Subcommittee, my good friend, the Honorable Bruce Braley.

                                 <F-dash>
              Prepared Statement of Hon. Bruce L. Braley,
          Ranking Member, Subcommittee on Economic Opportunity

    I am honored to hold this field hearing today here in Waterloo and 
would like to welcome Chairman Marlin Stutzman to my hometown, my 
district and the great state of Iowa. I know you will enjoy your visit 
here with the good folks from Iowa.
    In July and August of this year, over 3000 Iowa National Guard 
troops returned from active duty in Afghanistan, and we have a number 
of these hard working Guardsmen looking for jobs. Iowa and our 
servicemembers, National Guard, Reservists, and veterans are not immune 
to the economic hardships facing the rest of the country. That is why I 
am glad to have the opportunity today to hear about these growing 
concerns surrounding veterans; specifically, employment, transition, 
and education matters affecting National Guard Members, Reservists and 
veterans in Iowa, and across the Nation. This is a great opportunity to 
be part of an open discussion to find solutions to these problems.
    Transitioning services are critical for the success of our men and 
women in the Armed Forces. Joining the military is not just about 
following orders and completing the mission, it's a way of life. But 
when it's time to join the civilian world, it can sometimes be a 
challenge to translate skills learned in the military into talking 
points on a job resume. That's why it is crucial that transitioning 
services should be provided to everyone leaving the military.
    An education can help you learn a new skill or reinforce the skills 
you already know, but it can also help you adapt as a civilian. The 
Committee recognizes the importance of servicemembers and veterans 
pursuing an education which is why we continue to fight so hard to 
improve education benefits. Current education benefits allows certain 
veterans to attend school full-time while getting a housing stipend, 
thus allowing veterans to be fully engaged in academics.
    We are all well aware of the current employment crisis facing our 
Nation. With an unemployment rate of 6.1 percent in Iowa, I am 
constantly working with my colleagues in Congress to find solutions to 
the recent economic downturn. I understand how these hardships can be, 
and I find the high unemployment rate for veterans unacceptable.
    Earlier this year I introduced a bill to cut payroll taxes for 
businesses that hire unemployed veterans. The Combat Veterans Back to 
Work Act provides employers with a payroll tax break if they hire 
recently returned veterans who are unemployed. After their 
distinguished service in Afghanistan and Iraq, we should do all we can 
to help veterans and members of the Iowa Guard find employment in their 
communities. This legislation will support our friends and neighbors in 
the Iowa National Guard, Reserves, and other military branches who have 
recently returned home and face a difficult job market.
    Today I look forward to hearing from Iowa National Guard Members 
about some of the challenges they face as they make the transition back 
into society after serving overseas. I have invited local businesses to 
testify to hear about initiatives they are taking to get veterans back 
to work. I also look forward to hearing from different agencies and the 
work they are doing related to veterans employment.
    I hope we can all have an open and honest dialogue about problems 
and concerns facing our veterans today that will continue after this 
hearing in Washington, DC as we work together to address these issues. 
Servicemembers and veterans are dedicated and hard working. Their 
experience is invaluable. Thousands of Iowans have returned home after 
serving proudly overseas this past year alone. Now we must support them 
and help them transition their great experience and talent back into 
the Iowa workforce.
    Mr. Chairman, I look forward to this hearing. Thank you and I yield 
back.

                                 <F-dash>
          Prepared Statement of Staff Sergeant Nathaniel Rose,
                        ARNG, North Liberty, IA

    Chairman Stutzman, Ranking Member Braley and Members of the 
Subcommittee. I would like to extend my gratitude for being given the 
opportunity to testify at this hearing today. It is an honor to lend my 
voice to my fellow veterans and the ongoing economic struggles we face.
    My Name is Nathaniel Rose. I am currently a Staff Sergeant in the 
Iowa Army National Guard as well as a senior at the University of Iowa. 
I have been deployed to Iraq and I have just returned from a deployment 
to Afghanistan in July. To help pay for my studies I currently receive 
the GI Bill along with state and Federal tuition assistance. I speak 
based solely on my experiences in the Iowa Army National Guard and 
experiences of those that have served with me. I cannot accurately 
speak regarding any other branch of service or any other state's 
National Guard.
    I decided to join the National Guard during my freshman year of 
college, looking for adventure, but also for economic reasons. I come 
from a hard working middle class family and if I wanted to attend 
college I would have to pay for it myself. I did not receive many 
scholarships and I did not want to incur a large amount of student loan 
debt so I joined the National Guard because the tuition assistance and 
GI Bill would pay for my education. If it wasn't for tuition assistance 
and the GI Bill I might have quit going to school or not have joined 
the National Guard at all. Joining the military is a very hard decision 
to make but the benefits one might receive help make the decision 
easier.
    The GI Bill has been one benefit that I have come to appreciate 
more over time. When I first began receiving the benefit it was not a 
large amount. This was fine because state and Federal tuition 
assistance paid for all my tuition and fees and I could use the GI Bill 
for other things. After two deployments I now receive a much larger 
amount because it is prorated based off the active duty amount and how 
much time I've spent deployed. The amount is actually enough, when 
coupled with my drill pay every month, that I do not have to work. I am 
able to concentrate completely on my studies, which any senior will 
tell you, is a hard thing to do.
    I, however, do not have all the obligations that a number of 
soldiers I know have. I have no wife, no children, no car payments and 
so on. Many National Guard soldiers cannot go to school full time and 
take care of their family with tuition assistance and GI Bill alone, 
especially if they have not been deployed and receive a smaller pro-
rated amount. This forces them to work while attending school. There is 
nothing wrong with working while going to school but for some soldiers 
I know personally they have had to stop going because they needed to 
move to full time at work, their grades were slipping or they weren't 
spending as much time with their family as they wanted to. The Post-9/
11 GI Bill has attempted to address some of these issues by paying 
basic allowance for housing to students. The only problem with this is 
that once again it is pro-rated for National Guard members. One 
solution to this problem might be to have National Guard members pay 
into the GI Bill like active duty members do. Another possible solution 
would be to put everyone on the same level and not pro-rate the 
payments. Neither of these solutions is perfect but they might be a 
good starting point.
    Education benefits, to me, seem more complicated. If a soldier 
doesn't sit down with an expert it's hard to figure out the ins and 
outs of the benefits. The difference between the 5 GI Bill programs is 
not easily ascertained by looking at the Web site or reading pamphlets. 
If soldiers are better informed about their benefits it's easier for 
them make decisions about whether they can afford to go back to school 
or not, especially those with families. The GI Bill needs take into 
account that soldiers do have families. They may not be able to support 
a family and go to school at the same time.
    The National Guard has delayed my education twice but I cannot 
fault them for that because they are essentially paying for it. Also I 
believe that my time in the National Guard has made me a more 
marketable person and when my education is over I hope being more 
marketable aids me in securing not just a job but a career. The problem 
with this is how do I convey to potential employers the significance of 
what I've done, experienced and learned in the National Guard?
    Resumes are the most popular way of conveying these things. Some of 
my experiences are difficult to put in a resume. If I put ``led over 
150 combat missions in Afghanistan'' in my resume most employers would 
not understand the significance of that nor would many soldiers know 
how to convert that into a resume friendly statement. One way soldiers 
could translate their skills into civilian terms would be to get help 
from a resume writing professional. I could receive help on my resume 
from the career center at my school but I feel that they don't 
understand what I've done either, so the significance of it won't be 
conveyed in my resume if they help me. I'm lucky enough to go to a 
school that has a large veteran population, someone is always available 
to critique my resume if need be. Many National Guard soldiers are not 
that lucky and must either drive long distances or email resumes to 
more qualified help. Educating job recruiters or resume helpers better 
on the military may help remedy the problem, but it is easier said than 
done. I believe that by bringing in military resume writing 
professionals on drill weekends or by incorporating them more at 
demobilization sites might be the help that soldiers need.
    I am set to graduate in May and I have been exploring job 
possibilities and what I am qualified for. The economy may be down but 
there is a plethora of job postings on internet job search sights, 
companies' Web sites, in newspapers, etc. The hard part becomes 
determining what employers are looking for and if I am qualified. I 
have spoken to many soldiers since returning from Afghanistan and this 
process is the one that they are having the most trouble with. A 
suggestion that a fellow veteran presented to me would be to bring job 
recruiters from the mobilized units' area to the demobilization site 
and recruit from there. Soldiers and recruiters would have a chance to 
speak about qualifications, job descriptions and even do interviews if 
need be. Even if soldiers did not get hired they would have an 
understanding of what employers are looking for and how to better 
prepare themselves for the job search once their mobilization is over.
    Another cause for problems is that many civilian employers don't 
know enough about the military to effectively hire or help a veteran. 
If soldiers can learn to effectively market themselves and civilian 
employers can learn more about the military both sides could reach a 
common ground so soldiers aren't passed over for jobs and employers 
don't miss opportunities to hire great workers.
    I appreciate what the government and the military has done for me 
but I think more can be done to help soldiers, sailors, airman and 
marines. I have noticed things improving in my 6 years in the military, 
from drill to drill and deployment to deployment. There are many new 
programs starting up throughout the country and within our government 
that are dedicated to helping veterans which is a sign of forward 
progress. Mr. Chairman, this concludes my testimony. I would be honored 
to answer any questions that the Committee might have. Thank you for 
giving me the opportunity to testify and thank you for all that this 
committee does for my fellow veterans.

                                 <F-dash>
             Prepared Statement of Captain Aaron Robinson,
                          ARNG, Des Moines, IA

    My Name is Aaron Robinson. I reside with my wife and two children 
in Des Moines. I am a commissioned officer in the Iowa Army National 
Guard. I recently returned from a 1-year deployment to Afghanistan. In 
my civilian career, I am currently pursuing jobs related to business, 
Project Management or data-analysis.
    I want to share with you today three impressions I have from 
looking for a job, post-deployment.
    First, repeated military deployments have given Iowans like me 
world-class skills and experiences, but that these are not widely 
recognized or rewarded when searching for civilian work in our home 
state.
    Second, employers are nearing the exhaustion of their patriotic 
feelings toward veterans. Despite the existing laws protecting against 
discrimination based on military service, employers seem to shy away 
from hiring citizen-soldiers.
    Third, searching for a job while deployed overseas is next to 
impossible--and waiting until after deployment adds more stress to an 
already stressful situation: reintegration with family and friends.
    Let me tell you where I'm coming from:
    I grew up on a farm approximately an hour west of Des Moines in 
Yale, and graduated from Perry High School in 1992. I studied Mass 
Communication at Grand View College in Des Moines. After college, I 
bounced around various retail jobs. I enlisted with the Iowa National 
Guard in 1998, and was trained as a tank mechanic.
    In 2002, I commissioned as an officer specializing in tanks and 
other armored vehicles. I married my wife Katie, in 2003 and I deployed 
to Kosovo, where I commanded a platoon. My first child, Amelia, was 
born while I was overseas.
    When I returned home, I transferred to Military Intelligence and 
attended multiple military schools. In my civilian career, I worked as 
an employment counselor for homeless veterans, and as a general manager 
of a convenience store. After that I spent a number of years on 
temporary full-time active-duty here in Iowa, helping train and 
mobilize more than 16 National Guard units for overseas deployment.
    Last year, I was deployed to Afghanistan where I served as the 
Intelligence Officer of Iowa's 113th Cavalry Squadron. The experiences 
that I received there were excellent and I could not have received them 
anywhere else. Since coming home to Iowa in late July, I have been 
steadily seeking employment. As of today, however, I have been unable 
to find work.
    I am not alone.
    For example an enlisted soldier friend of mine was the database 
manager for our unit's personnel records pertaining to security 
clearances. (That's 500 records--the size of a good-sized company.) 
However, now that he's back at home, civilian employers don't seem to 
recognize his abilities to learn new computer systems, and to manage 
highly sensitive data on a daily basis. To add insult to injury, he 
can't even find work in his old civilian occupation--he's a welder.
    I've faced similar challenges to that of my friend, trying to 
figure out how to translate military language into civilian Human 
Resources-speak. After some resume coaching, I found my work in 
intelligence most closely applies to business analysis and project 
management. However, unlike my purely civilian counterparts, I'm not 
necessarily versed in the latest business acronyms and buzz-phrases, 
which decreases the likelihood of getting through H.R. filters. Also, 
while I am proficient in military computer software and hardware, I am 
not specifically trained in systems most-familiar to potential civilian 
employers.
    Employers, politicians, and even the media talk up certain ideas 
about veterans: that we're hard-working and motivated, that we're 
mission- and people-focused, and that we handle pressure extremely 
well. Beyond this, however, and the occasional job-fair and ``welcome 
home'' PowerPoint show, veterans don't seem to get a lot of practical 
help in getting hired. I have said many times that everyone wants to 
help, but no one seems to know how. I have received lots of well 
intended suggestions, sometimes conflicting, but none of them have 
gotten me much farther in my job search.
    Maybe employers are getting burned out. Ten years of war--and 
Iowa's river floods and blizzards and other state emergencies--might do 
that. Maybe they're worried that we're going to get deployed again. 
Maybe they really don't see the economic values inherent in our 
military skills and experiences.
    I know times are tough for a lot of Iowans. I don't want to get a 
job just because I am a returning veteran, but I would at least like a 
chance to get to an interview and prove I am a good employee. I also 
want to keep my family in Iowa, to give my kids the same kind of values 
and experiences I had.
    For now, however, our life is on hold. The military gave me time 
off after the deployment to unwind and reintegrate into ``normal'' 
life. I do not feel like I have done that. I plan to go back to school, 
but I am putting that off because of a lack of stability in my life and 
the life of my family. Interviewers do not ask me about my military 
experience, but they know it is there. If I didn't put it on my resume, 
you would be able to tell just from talking to me. I am proud of the 
work I have done and the people with whom I have served.
    I'm just an Iowa farm kid that just got a chance do some exciting 
things, in some pretty unpleasant places, with some really great 
people. I just want to get back to my civilian life, get a normal job, 
and be a regular person for a while.
    My family would like that, too.
    Thank you for this opportunity to talk about my experiences looking 
for employment.

                                 <F-dash>
       Prepared Statement of Stacy Litchfield, Regional Manager,
             Talent Acquisition and Performance Consulting,
                   Deere & Company, Inc., Moline, IL

    Congressman Braley and distinguished Members of the Committee, my 
name is Stacy Litchfield. I am the United States Regional Manager, 
Talent Acquisition for Deere & Company. On behalf of John Deere, thank 
you for the opportunity to provide testimony today on this important 
topic.
    John Deere is a worldwide leader in providing advanced products and 
services for agriculture, forestry, construction, turf care, 
landscaping and irrigation. We're a leading manufacturer of off-highway 
diesel engines and one of the largest equipment finance companies in 
the United States. We have operations in 30 U.S. states.
                   Attracting Veterans at John Deere
    As an employer, we focus on attracting, developing and retaining 
the best global talent from all backgrounds. At times our recruiting 
efforts focus on access and visibility to specific groups. One is 
veterans. We identify organizations that provide the broadest reach and 
help our staffing team leverage various military recruiting initiatives 
and related events.
    John Deere staffing participates in several recruiting events 
targeting veterans, including career fairs, conferences and virtual 
career fairs.
    We also work directly with the military when appropriate. We've 
participated in the Army Partnership for Youth Success (PaYS) Program 
since its inception. Young men and women can enter the service knowing 
that they will receive specialized training and develop skills that are 
in demand in the private and public sectors, and Deere gets access to a 
pool of skilled candidates.
    John Deere is also active in a variety of outreach programs and job 
boards that help us connect with veterans who offer a broad array of 
skills and experience. We also work with military staffing 
organizations to recruit veterans. For example, the Army Partnership 
Program, a job posting and resume database, has provided us with 
candidates for both mid-career and wage positions.
    Along with employing veterans, we support programs that help 
veterans start businesses and become suppliers to companies like ours. 
Our suppliers include about 200 veteran-owned businesses, and about 50 
businesses owned by service-disabled veterans.

            Developing and Retaining Veterans at John Deere

    At John Deere, we recognize that engaged employees working together 
create a competitive advantage. We cultivate an environment of 
inclusive teamwork through programs such as our employee networks. One 
of these resource groups is composed of employees who have a connection 
to the U.S. military. The group brings employees together to build 
relationships, provide support and sponsor military outreach 
activities.
    Deere also has military leave of absence provisions for reservists 
and guardsmen who are called up for active duty in Iraq and 
Afghanistan. To help ease the financial hardship endured by these 
soldiers and their families, Deere voluntarily provides up to 2 years 
of differential pay where applicable along with health benefits, life 
insurance, and other benefits. The impact on retention has been 
significant. Since 2001, more than 200 Deere employees have been 
deployed. Over 96 percent of those soldiers still work for John Deere.

                 Decreasing Unemployment among Veterans

    Even though veterans are purposely included in our recruiting, 
development and retention efforts, we face challenges in effectively 
bringing them into our organization.
    First, with the variety of organizations and job boards available, 
it's difficult to determine the best way to connect with job candidates 
from the military workforce.
    Our recommendation would be a central data source that offers links 
to standardized job, industry, and geographic classification codes to 
other reported Federal labor, employment, economic and census data. 
This would help improve results for job posting visibility among the 
right candidates.
    Additionally, many veterans are challenged to translate their 
education and skills to fit requirements for non-military positions. 
Transitioning military may also be at a disadvantage without 
accreditation or certification required by some professions.
    To remedy this, all levels of government could implement solutions 
that effectively balance current challenges with educational system 
gaps, the accreditation of job seekers, and the fiscal demands and 
resources of employers.
    In closing, I want to highlight again the importance, priority and 
demonstrated focus John Deere places on hiring, outreach, skill 
development and training of veterans.
    Thank you again for the opportunity to share our views on improving 
employment opportunities for veterans. I will be happy to respond to 
any questions.

                                 <F-dash>
      Prepared Statement of Major Kerry M. Studer, USA, Assistant
          Managing Director, Commercial Real Estate Division,
                Principal Financial Group, Waterloo, IA

    Chairman Stutzman, Ranking Member Braley and Members of the 
Subcommittee, thank you for the opportunity to discuss the Principal 
Financial Group's commitment to protecting the job rights of veterans 
and Guard/Reserve members.
    1 am Kerry Studer, a recently deployed Anny Major and assistant 
managing director in the commercial real estate division of the 
Principal Financial Group. I have been mobilized for deployments three 
times in my military career and have had the opportunity to see 
firsthand how two different employers and one university handled my 
time away from the office or school. My most recent deployment was in 
2009-20 I 0 when I was employed with the Principal Financial Group.
    The Principal Financial Group, based in Des Moines Iowa, is a 
FORTUNE 500 company and a retirement and global investment management 
leader. We have roughly 8,900 employees in Iowa and more than 13,000 
worldwide.
    The Principal offers businesses, individuals and institutional 
clients a wide range of financial products and services, including 
retirement, investment services and insurance.
    As an employer with more than 200 veteran and active military 
employees and the experience of having nine employees on emergency 
military leave in the last 2 years, The Principal is committed to 
protecting the job rights of employees who serve their state and 
country through the uniformed services.
    I am here today to talk with you about that commitment.
    We, as employers, have clearly come a long ways in supporting 
Soldiers and families since my first deployment in 1990 for Desert 
Shield/Desert Storm. While I have clearly seen improvements over my 22 
years of military service, I had the opportunity during my last 
deployment to command over 300 Soldiers from 19 different states, and I 
saw firsthand how Soldiers view the ir civilian employer while they are 
deployed.
    Personally, I had the benefit of working for an exceptional company 
that clearly supported me, my family and my unit. Given this 
experience, I was asked by our Chairman, President and CEO, Larry 
Zimpleman, to testify here today to discuss insights on how employers 
can successfully support their Soldiers whether they are deployed or 
serving in a peacetime mission.

Recruiting and Retention

    The first step in the process is recruitment and retention. The 
Principal has targeted outreach efforts in order to attract and retain 
members of the military. We maintain an ai11nnative action plan for 
covered veterans and actively pursue good faith efforts in recruiting 
practices to target veterans and individuals with a military 
background.
    Specifically:

    <bullet>  Our recruiting team receives education and awareness 
through our partnership with Iowa Works, Iowa ESGR and U.S. Department 
of Veteran's Affairs.
    <bullet>  In return, our recruiting team is available to train Iowa 
veterans on interview and resume writing skills as they re-enter the 
workforce.
    <bullet>  We post job opportunities on military-specific Web sites, 
and recruitment representatives attend military related job fairs.
    <bullet>  We have a designated H.R. department that manages 
military leaves, USERRA requirements, etc. In addition, we provide 
USERRA information to leaders to raise their awareness.
    <bullet>  We have a very active internship/co-op program, which I 
personally do a fair amount of recruiting for, with the help of our 
campus relations group in Human Resources. We have been successful in 
hiring previously deployed veterans who are currently completing their 
4-year degrees. These students have already had to delay their 
education due to the deployment, and we see great benefit in providing 
an internship or co-op to these young veterans. These internships/co-
ops greatly benefit the student/Soldier in providing a corporate 
experience and give us as an employer an insight as to how we can 
attract some of the best talent available before they graduate from 
college.

Benefits for employees who are Servicemembers

    For employees who are servicemembers, our military leave policy 
ensures full pay for eligible emergency military leave for 30 days. In 
addition, we pay a differential for the remainder of the first year. 
This is something we've chosen to do-not only to comply with the letter 
of the law, but what we believe to be the spirit of the law.
    Regarding all other benefits:

    <bullet>  Medical, vision and dental coverage continue for the 
employee and their dependents for 12 months.
    <bullet>  Regarding our pension plan, military service is counted 
for vesting and accrual service.
    <bullet>  With our 401(k) plan, military service is counted for 
vesting service. When you return from leave, you may make up missed 
elective deferral contributions, and the company will make the 
corresponding match based on the salary you would have received had you 
remained active with the company. The time period to make up missed 
payments is three times the period of military service (up to a maximum 
of 5 years).

    In addition, reservists who volunteer for active duty are eligible 
for continued pay, and we cover all servicemembers in any military 
branch.

Benefits for military family members

    The Principal ensures military family members are taken care of. In 
addition to the community of support I'll discuss later, two specific 
benefits help this group:

    <bullet>  Military Family Active Duty Leave This program allows up 
to 12 work weeks of unpaid leave in a calendar year in the event an 
eligible family member is called to full-time covered active duty or is 
on full-time active duty. The program is designed to allow for 
management of family, child care or financial matters that may arise 
because of a family member's covered active duty military service.
    <bullet>  Military Family Leave to Care for a Covered Servicemember 
or Veteran Employees are allowed up to 26 work weeks of unpaid leave in 
a calendar year to care for their spouse, parent, child or next of kin 
who is a covered servicemember. This leave applies if the covered 
servicemember has a serious illness or injury sustained in the line of 
military duty and is on active military duty. It also applies if a 
veteran, for up to 5 years after he/she leaves the military, has a 
service related injury or illness that was incurred or aggravated while 
on covered active duty.

Internal support of our Military and Military Families

    In addition to employee benefits, a number of other resources 
contribute to a supportive environment for employees who are members of 
the military, as well as their families:

    <bullet>  As a 2011 winner of the Freedom Award from the Employer 
Support of the Reserve and Guard (ESGR), based upon my personal 
nomination, our internal support for Soldiers and military families is 
well documented. But I wanted to highlight just a few examples of what 
sets The Principal apart from other companies.

       Not only did my company support me, my family and my unit, they 
took the time to understand what deployments do to both the Soldier 
overseas and also the spouse/children back home. While I-IR guidelines 
and corporate support are all important to supporting deployed 
Soldiers, the very best companies take a personal approach to company 
support and extend assistance at a very personal level. It is this 
personal touch that solidifies the commitment both to and from the 
Soldier and his/her family.

       Here is a brief list of examples of those personal touches with 
the Soldier, the family and the unit:

        <bullet>  Occasionally bringing over food to the family just to 
        say hello and ask if anything is needed
        <bullet>  Taking the dependent children to high school and 
        college sporting events
        <bullet>  Offering to assist with lawn care/snow removal
        <bullet>  Raising money 10 purchase unit specific physical 
        fitness uniforms for the unit overseas
        <bullet>  Designing and purchasing unit coins that were 
        distributed to Soldiers overseas
        <bullet>  Sending countless care packages not only to the 
        deployed Soldier but also to other Soldiers within the unit who 
        maybe do not receive as many care packages
        <bullet>  Providing the occasional babysitter for the state-
        side spouse to enjoy some time away from the everyday grind of 
        being a single parent

    In addition:

    <bullet>  Employees returning from military service receive 
education and support as they transition back to work.
    <bullet>  Employees may network with other employees via the 
Military Family Support Special Interest Public Folder in our email 
system.
    <bullet>  Employees returning from military service and their 
families receive support from their departments and individual 
employees. For instance:

        <bullet>  Various departments have honored those serving in 
        Iraq and Afghanistan by promoting Red Shirt Day and creating 
        care packages.

    Raising awareness at The Principal The Principal ensures its entire 
employee population supports its commitment to active military and 
veteran employees through a number of initiatives.

    <bullet>  Our Chairman, President and CEO Larry Zimpleman annually 
sends a personal note of thanks to all employees who are veterans, 
military, guard and reserve.
    <bullet>  During National Veterans Awareness Week, employees who 
are veterans or Guard/Reserve members are invited to a special event 
honoring them for their service. A member of senior management provides 
the keynote address each year. In addition, we seek ways to honor 
veterans each year-the nature of which vary from year to year. This 
year we're providing all veterans with a unit coin.

        <bullet>  While this may seem like a small token from senior 
        leadership, I can assure you that this one event has a great 
        impact with our currently employed veterans. Not only do you 
        get to hear firsthand from our C-level executives, you clearly 
        leave knowing that your military service is valued within the 
        halls oft he Principal Financial Group. It is also a time for 
        all the veterans to get together and discuss their respective 
        experience and service within the military ranks. Most veterans 
        are generally humble in nature but our senior executives take 
        the time every year to remind each of the veterans of their 
        personal sacrifice and the fact that our company genuinely 
        appreciates our service.

    <bullet>  Human Resources representatives, department leaders and 
senior leaders have participated in ESGR's Boss Lift. This event 
familiarizes employers with the National Guard and Reserve's role in 
our Nation's defense by letting them experience some of what their 
employees in the Guard or Reserve go through. During the 2010 event, 
one of the participants blogged about her experience for the company's 
intranet so all employees could gain appreciation for the Guard and 
Reserve.
    <bullet>  Our internal communications regularly highlight military 
employees, veterans and military family members for their service and 
sacrifices and to share their experiences and lessons learned.

Community Outreach and Support

    In addition to supporting our own military and veteran employees, 
we encourage other companies in the communities in which we have 
locations to develop similar programs which we believe benefit the 
veterans, their families and the community at large.
    Senior leaders at The Principal personally and publicly express 
support of military employees, family members and veterans through:

    <bullet>  Hosting an Employer Support of Guard and Reserve 
Statement of Support and workshop event. This past January, our 
Chairman, President and CEO Larry Zimpleman hosted ill1 event where he 
encouraged attendance from other local businesses to sign the SGR 
Statement of Support and to learn more about ESGR and the services they 
offer, including hiring of those returning from Iraq and Afghanistan.

        <bullet>  I was personally invited to this event and witnessed 
        the amount of positive influence that one company can have on 
        other companies within a community. Larry's comments clearly 
        demonstrated his and our company's sincere commitment to the 
        members of the Guard and Reserve. The event provided a venue 
        for companies to discuss and ask what we can do better to 
        support our local military. We would encourage more of these 
        types of events with broader participation. If done correctly 
        with the right participants and support, the awareness of 
        supporting the Guard and Reserve will be increased 
        exponentially.
    <bullet>  Participation in Iowa Gov. Terry Branstad's inaugural 
event saluting the Iowa National Guard. Ralph Eucher, senior vice 
president of human resources, attended on behalf of The Principal.
    <bullet>  Participation in Gov. Branstad's recent ESGR event to 
recognize the three Iowa nominees for the National Freedom Award. Dan 
Houston, president-retirement, insurance and financial services at The 
Principal, accepted the award on behalf of The Principal.

    Our support extends to the community in other ways, including:

    <bullet>  Placing an ad in the Des Moines Register, thanking our 
veteran and military employees and retirees
    <bullet>  Offering a Military Appreciation Day during The Principal 
Charity Classic, one of the top golf Champions Tour events
    <bullet>  Encouraging employees to use their 8 hours of Volunteer 
Time Off each year, which they can use to volunteer at an organization 
of their choosing, including military-related causes
    <bullet>  Providing financial and in-kind contributions to non-
profit military-related organizations through our Foundation, including 
the following:

        <bullet>  Children of Fallen Servicemembers Scholarship fund 
        (The Principal donated $25,000 as part of the Branstad-Reynolds 
        Scholarship Fund.)
        <bullet>  Iowa National Guard Officers Auxiliary
        <bullet>  Sight for Soldiers
        <bullet>  Iowa Gold Star Museum
        <bullet>  Fort Des Moines Museum and Educational Center
        <bullet>  Veterans of Foreign War
        <bullet>  Disabled American Veterans
        <bullet>  Honor Flight to Washington, D.C.

Recognition

    In recent years, The Principal's commitment to military and veteran 
employees has been recognized by several organizations, including:

    <bullet>  The Above and Beyond Award: The Principal received the 
``Above and Beyond'' Award from the ESGR in 2010 and 2011. The award 
recognizes employers at the state and local level that have exceeded 
the legal requirements for granting leave and providing support for 
military duty for employees who serve in the Guard & Reserve.
    <bullet>  The Patriotic Employer Award: The Principal received this 
honor from the ESGR in 2009.
    <bullet>  The 2011 Secretary of Defense Employer Support Freedom 
Award: The Principal is one of 15 recipients for 2011 out of a field of 
4,049 nominations submitted by Guard and Reserve servicemembers. 
Freedom award recipients distinguish themselves by going to 
extraordinary lengths to support their military employees.

    As I mentioned earlier, I have been mobilized or deployed three 
times in my 22+ years of military service. Without question, The 
Principal has set itself apart from all others in supporting me, my 
family and my unit.
    While all deployments are hard on families and Soldiers, I 
personally experienced what actions can be taken by a proactive company 
committed to supporting deployed Soldiers. It is clearly these actions 
that will be remembered by both the Soldier and his/her family long 
after the deployment is over and the Soldier is back at work.
    Because of the support from The Principal, I was able to focus 
completely on the critical tasks at hand in Iraq with the knowledge 
that my family was taken care of, my job was waiting for me when I got 
back and my co-workers were rooting for me, praying for me and 
supporting me. Itmade all the difference,
    With this type of support, you are able to be a better Soldier and 
a better employee when you return.
    That's why I felt compelled to nominate The Principal for the 
Secretary of Defense Employer Support Freedom Award. I'm so proud they 
were selected from thousands of nominations to get the recognition I 
feel they so richly deserve.

Call to action

    The cumulative effect of all of the programs, events and activities 
I've mentioned today is a work environment where military and veteran 
employees feel supported in their military leave while they're away and 
valued for the service they've provided to their state/country once 
they return. While senior management can lead with their support and 
encouragement, each employee plays a role in creating that supportive 
culture.
    J can't say enough about the commitment our leaders and employees 
have shown, personally and publicly, by expressing support of military 
and veteran employees at The Principal and beyond.
    I'm lucky to be a citizen of this great country, a Major in our 
great Army and an employee of The Principal. I feel I've benefited from 
a best case scenario in terms of the relationship between my military 
service and my employment at The Principal.
    What we need is for marc companies to step up and create a platform 
for even more best case scenarios, so they can become the norm, not the 
exception. I look forward to that happening, and I'm happy to help in 
any way I can,
    I'm honored to be here today, Thank you for your time.

                                 <F-dash>
         Prepared Statement of Stacey May, Manager, Tax Credit
           Program, Honkamp Krueger & Co., P.C., Dubuque, IA

Hire Heroes

    According to the Department of Labor, the unemployment rate for 
veterans ages 18 to 24 in 2010 was 20.9 percent. Even more astonishing 
is that veterans, as a whole, accounted for a total 1,020,000 people 
looking for work in the United States. To make matters worse, on 
October 5, Federal Reserve Chairman, Ben Bernanke warned, while 
addressing Congress, that the economic recovery, as it currently 
stands, ``is close to faltering.'' He later stated, ``We need to make 
sure that the recovery continues and doesn't drop back and that the 
unemployment rate continues to fall.''
    To sum it up, we need action, action to keep this economic recovery 
going and action to make sure businesses continue to hire, otherwise, 
the unemployment rate for veterans and the country as a whole will 
continue down a path toward higher unemployment and further economic 
turmoil. I believe the core part of the action needed to sustain a 
continued recovery is a permanent employment tax credit that 
incentivizes businesses to hire. The Work Opportunity Tax Credit (WOTC) 
does just that.
    The WOTC program is a perfect example of a successful government 
program that rewards businesses for hiring employees from certain 
groups that have consistently faced barriers in seeking employment. 
These groups, known as target groups, include veterans, people on 
government assistance, the disabled and ex-offenders. According to the 
Department of Labor, the WOTC program processed 849,868 certificates in 
fiscal year 2010 that allowed employers to claim the tax credit on 
their income tax return. Currently, employers that hire qualifying 
employees generally may be eligible for a 1-year Federal income tax 
credit worth anywhere from $1,200 to $4,800 and in some cases a 2-year 
credit worth up to $9,000. Unfortunately, the WOTC program is set to 
expire at the end of the year, December 31, 2011, which would be an 
additional blow to the veteran community when seeking employment.
    I believe that we can get our unemployed veterans back to work with 
the WOTC program by making three changes.

    1.  Make the Work Opportunity Tax Credit permanent

        <bullet>  Since its creation in 1996, the WOTC program has been 
        up for renewal eight times. By making the program permanent, it 
        would add stability in the hiring process.

    2.  Expand the program by adding a target group for hiring 
unemployed veterans

        <bullet>  President Obama mentioned this in his proposed 
        American Jobs Bill, naming it the Returning Heroes Tax Credit. 
        It would allow unemployed veterans to qualify their employer 
        for WOTC.

    3.  Increase the maximum tax credit amount an employer may receive 
for hiring qualified veterans.

        <bullet>  Increasing the tax credit amount would further 
        incentivize employers to hire veterans.

    The unemployment rate for the veterans in our country is too high. 
We need action by our leaders in Washington to help veterans who served 
our country get back to work. With modifications to the WOTC program, 
such as making the WOTC program permanent, creating an unemployed 
veterans target group, and increasing the tax credit for hiring 
veterans, it will not only fuel employers to create jobs, it will fuel 
employers to hire our brave veterans.

                                 <F-dash>
           Prepared Statement of Timothy J. Carson, Manager,
               Veterans Initiatives, Office of Diversity,
                Rockwell Collins, Inc., Cedar Rapids, IA

Executive Summary

    As a global company pioneering innovative communication and 
aviation electronic solutions for both commercial and government/
defense applications, Rockwell Collins is deeply invested in the well-
being of military personnel, and that concern continues after their 
active duty is complete. The high rate of veteran unemployment--which 
is higher than the national average--demands private and public 
response.
    In that spirit, Rockwell Collins pursues an aggressive veteran 
recruitment strategy internally, and works with a number of 
organizations externally to extend this approach to other employers 
across the Nation.
    The components of this strategy include:

    <bullet>  Support of organizations that advocate for employee 
rights and benefits during active service with the Guard and Reserve 
such as the Iowa Employer Support of the Guard and Reserve (IESGR).
    <bullet>  Support of organizations offering legal assistance to 
servicemen and women before, during and after deployment.
    <bullet>  A full-time recruiter devoted to identifying and hiring 
military talent and advertising budget targeted toward veteran 
recruitment.
    <bullet>  Support and retention efforts such as Rockwell Collins' 
Veterans Employee Network Group, corporate networking opportunities and 
special events, and collaborations with the Veterans Administration to 
ensure necessary supports and services are available.
    <bullet>  Working with suppliers that are veteran-owned and service 
disabled veteran-owned small businesses.
    <bullet>  Support for the U.S. Chamber of Commerce and Student 
Veterans of America's jobs and internship program and ``Hiring Our 
Heroes'' initiative.
    <bullet>  Collaboration with the National Organization on 
Disability's Wounded Warriors Program.

    We hope the ideas embedded in this multi-pronged strategy 
contribute to the important national discussion surrounding this issue 
and help move businesses and policy makers closer to a strategy that 
reduces the veteran unemployment rate and helps veterans put the unique 
and desirable skills they developed to work for the well-being of 
themselves, their families and their future.

                               __________

                            Prepared Remarks

    Thank you, Congressman Braley and Congressman Stutzman. My name is 
Tim Carson. I serve as a manager of veterans initiatives with the 
Office of Diversity at Rockwell Collins, a global aerospace and defense 
company headquartered in Cedar Rapids, Iowa. In my position, I work 
closely with Rockwell Collins' human resources organization and a 
variety of external partners to promote outreach to veterans and 
veterans organizations.
    I am pleased to have the opportunity to talk to you today, and 
appreciate that you are taking time to listen to the perspectives of 
business and the community. It is particularly germane to this state, 
which has the one of the highest number per capita of reservists 
serving on active duty of any state in the union.
    And on behalf of Rockwell Collins, I would like to express my 
sincere appreciation for the invitation to speak about the importance 
of helping veterans secure meaningful employment.
    The valuable service these men and women provide is undeniable. And 
so are the core skills they developed in the service--leadership, 
discipline, responsibility and technological savvy--that can be 
invaluable to civilian employers.
    However, today more than 870,000 young veterans are unemployed--a 
rate higher than the national unemployment rate, according to the Iraq 
and Afghanistan Veterans of America. And the wind-down of engagements 
abroad will lead to an additional million seeking civilian employment 
in the next 5 years.
    When Rockwell Collins talks about these soldiers, we're not just 
speaking about them as a simple subpopulation amongst all of today's 
many unemployed. We're talking about the people we serve.
    They've relied upon our communication technology to stay connected 
with their leadership in harsh, remote settings around the globe. 
They've used our navigation systems to ensure the pinpoint accuracy of 
weapons systems in areas where civilians and combatants often live side 
by side. They've identified friend and foe with our helmet-mounted 
displays. And they've given us feedback, based upon their own 
experiences, to make these systems better for the next generation of 
warfighters.
    We are grateful for their service, and are dedicated to helping 
them successfully transition from their military service and bring 
their skills and experiences to the civilian workforce.
    To that end, Rockwell Collins has always prioritized the hiring and 
retention of veterans, and advocates that businesses across the state 
and nation do so as well. We also believe it's important for us and 
other companies to partner with local and national organizations to 
ensure veterans receive the job counseling, training and guidance they 
need to secure and make the most of employment opportunities.
    Today, I'm going to talk about some of the initiatives Rockwell 
Collins has pursued to build our veteran workforce, and the 
partnerships we maintain. These aren't necessarily the only answer; in 
fact, I'm sure there isn't one single answer to this challenge. But we 
recognize you're seeking a breadth of ideas, and I think we have some 
good ones.
    Internally, our company has practices and policies in place to 
ensure we attract and retain veterans and their spouses as employees.
    Nearly 8 percent of our domestic workforce is made up of veterans, 
and at any given time a number of them are serving active duty through 
the Guard and Reserve. In fact, we are a strong advocate of the 
principles of the Iowa Employer Support of the Guard and Reserve, or 
IESGR. The organization calls for companies to adhere to, and go 
beyond, the provisions of the Uniformed Services Employment and 
Reemployment Rights Act, including maintaining benefits, contributing 
to employee 401(k)s during military duty, and maintaining vacation 
accrual and raises. Because Rockwell Collins follows these guidelines 
and also promotes these principles to others in the community, we have 
earned a five-star rating from the IESGR.
    We also recognize that legal issues can be a burden on Iowa's 
servicemen and women before, during and after their deployment, and 
provide ongoing support of the Iowa Returning Veterans Project to 
provide them with free legal assistance.
    Our human resources group has a full-time recruiter devoted to 
identifying and hiring military talent, and we allocate a specific and 
growing percentage of our annual recruitment/advertising budget to 
military outreach. Through these efforts, we have consistently grown 
our share of veterans as part of our total workforce, including a 4 
percent increase in the past fiscal year.
    But there's more to go. Our leadership has identified the hiring of 
even more of yesterday's warriors as a key business goal for FY 2012, 
and we are launching an enterprise-wide strategy to increase our 
outreach, recruitment, hiring and retention efforts for veterans and 
veterans with disabilities.
    Once hired, we further the well-being and retention of these 
individuals through a Veterans Employee Network Group, corporate 
networking opportunities and special engagements such as Transition 
Think Tanks and PTSD seminars. We collaborate with the Veterans 
Administration and other subject matter experts, to ensure that the 
necessary supports and services are made available and are accessible 
to our employees.
    We also recognize the importance of supporting veterans through our 
business contracting with suppliers. Year to date, Rockwell Collins has 
spent $57 million--nearly 5 percent of total corporate spending with 
suppliers--with Veteran-Owned Small Businesses, and $13.6 million with 
Service Disabled Veteran Owned Small Businesses.
    We are fortunate to have gained some recognition for these efforts. 
Rockwell Collins has been named a ``Top 100 Military-Friendly 
Employer'' by G.I. Jobs magazine for the past 2 years, and we strive 
every day to continue to deserve that recognition.
    Beyond our own hiring practices, Rockwell Collins seeks to support 
initiatives that promote hiring of veterans across the Nation.
    We are a proud corporate sponsor of the Jobs and Internship 
Program, a partnership championed by the U.S. Chamber of Commerce and 
Student Veterans of America (SVA). In fact, we recently made a 
significant contribution to the Chamber, specifically earmarked for 
their partnership with the SVA and development of the ``Hiring Our 
Heroes'' initiative.
    We attended the SVA's Leadership Summit and Career Fair this past 
summer in Madison, Wis., and will support the SVA's National Conference 
this December as a corporate partner, exhibitor and employment panel 
participant.
    In an initiative that is a personal passion for me, we also work to 
bring disabled veterans into the workplace, through a relationship with 
the National Organization on Disability, know as NOD, and its Wounded 
Warriors Program. As a primary sponsor of the organization, one of our 
senior executives sits on the board for NOD and is engaged in 
communicating core messages, events and opportunities for Rockwell 
Collins to both support and influence.
    And we continue to seek additional relationships or opportunities 
to promote veteran hiring wherever we do business, and to talk about it 
at every opportunity, like we are today.
    Now, there's no single solution to the complex challenge of veteran 
unemployment, and it's a pleasure to hear from the other participants 
today and get new ideas to consider.
    But I hope my and Rockwell Collins' contribution to the 
conversation is helpful as you consider the public and private 
strategies to tackle this issue.
    These men and women willingly accepted one of our Nation's most 
vital and precious responsibilities, of protecting the country from 
harm. And in turn, we commit to fulfill our responsibility to help them 
put the unique and desirable skills they developed in that endeavor to 
work for the well-being of themselves, their families and their future.
    I welcome any questions you may have today. I also encourage you to 
contact Rockwell Collins if you'd like to know more specifics about 
some of the initiatives I've outlined for you today.
    Thank you again for your time and attention.

                               __________

    Response to House Rule XI clause 2(g)(5): Tim Carson did not 
receive any Federal grant or subgrants thereof during the current 
fiscal year or either of the two previous fiscal years.
                                 <F-dash>

           Prepared Statement of Colonel Benjamin J. Corell,
       Commander, 2nd Infantry Brigade Combat Team, 34th Infantry
              Division, Iowa National Guard, Johnston, IA

Executive Summary

    I appear in front of you today to ask for your help in addressing 
the continued issue of high unemployment rates for returning Reserve 
and National Guard veterans of our Nation's wars. I know that 
addressing this issue and applying additional resources to help solve 
this problem is the right thing to do. Our Nation has been at war now 
longer than any other armed conflict in the history of our country. 
This last decade has been a long, tough fight for our military forces. 
I, like others have personally answered the call to duty time and time 
again. I have witnessed our hard-earned success in both Iraq and in 
Afghanistan. I have seen the sacrifice required by our men and women in 
uniform and by our families. Reserve and National Guard employers have 
quietly sacrificed at great costs with little thanks and no financial 
incentives to hire and retain our veterans.
    The burden of carrying out the directives of our senior leadership 
and prosecuting these conflicts has been borne by less than 1 percent 
of our Nation's population. These are the dedicated men and women of 
our Nation's military. Never before has our Nation asked for so much 
from an all-volunteer military. Never before has our Nation and the 
senior military leadership asked so much of the Reserve and National 
Guard. Not since the days of a national draft and conscription for 
World War II have we asked so much from our civilian employers. They 
have gone without some of their best and brightest who have left to 
support the war effort as we call up our Reserve Component 
servicemembers. I am here today to ask you to start the process to 
produce incentives for those employers who hire and retain our veterans 
in their workforce. In addition, we need to find a way to provide 
incentives for small business owners who are members of our Reserve 
Components in order to help these veterans sustain their livelihood 
after they return from answering our country's call.
    Our Nation and our people are currently in challenging financial 
times. Hard discussions and difficult decisions about spending are 
occurring not just in Washington DC, but across this Nation. These same 
hard discussions are taking place at every business, large and small 
and at kitchen tables across our country. Our returning veterans, our 
Reserve and National Guard members have repeatedly answered the call to 
duty serving in these current wars. It is because of their continued 
sacrifice that America has remained safe while allowing the pursuit of 
these wars with a smaller active military force and with no draft. 
These veterans have skills and experience that many employers desire. 
The aggregate unemployment rate for our veterans is habitually higher 
than the national average rate of unemployment. I need your help to 
correct this. All of the job fairs and resume writing workshops in the 
world will only get my fellow veterans so far. I believe that we need 
to review and update the 1994 Cold War-focused Uniformed Services 
Employment and Reemployment Rights Act of 1994. Concurrently we must 
develop and implement legislation that will provide real incentives to 
the business sector and for those veterans that own small business or 
private professional practices. Once that is completed, we need to 
market it to employers and ensure that it is enforced.
    This effort will introduce true benefits for hiring and retaining 
our veterans and enable veterans who own a business to remain 
competitive in today's challenging environment. I need your assistance 
to do this, and I ask for your help today.

                                 <F-dash>
        Prepared Statement of Mark Hennessey, Iowa Committee for
        Employer Support of the Guard and Reserve, Johnston, IA
                          Employer Support of the Guard and Reserve
                                Iowa Committee for Employer Support
                                                      Johnston, IA.
                                                    13 October 2011
The Honorable Marlin Stutzman,
Subcommittee on Economic Opportunity
335 Cannon House Office Building
Washington, DC 20515

Re: ``Hiring Heroes: Job Creation for Veterans and Guard/Reserve 
Members.''

Chairman Stutzman,
                           Executive Summary
    The primary missions of Employer Support of the Guard and Reserves 
(ESGR) are to educate, provide consultation to, and assist with 
reemployment challenges for Iowa employers, National Guard members, and 
Reservists. The Employment Initiative Program (EIP) was added to our 
mission in the fall of 2010 and is designed to facilitate employment 
opportunities for unemployed and underemployed servicemembers and their 
spouses.
    The Iowa National Guard's returning 2nd Brigade Combat Team survey 
results of 2,356 Soldiers, 721 consider themselves unemployed on their 
return. Prior to their deployment 630 of them considered themselves 
unemployed according to the Civilian Employment Information (CEI) data. 
Statewide statistics are less comprehensive. Data has not been 
effectively gathered from servicemembers outside of the Brigade 
deployers.
    Each military component enters CEI data into separate systems that 
eventually are filtered into the Defense Manpower Data Center (DMDC) 
where employment information is managed. The different entry system's 
of each military component creates challenges when attempting to draw 
accurate statistics. What it does provide is a picture of the % of 
fulltime vs. part time jobs, top occupations, types of employers that 
most often hire servicemembers, and types of industries.
    ESGR have partnerships with Employer Partnership of the Armed 
Forces (EPO), Iowa Workforce Development, the National Guard and 
Reserves, Job Connections Education Program (JCEP) and a large number 
of Association groups. These partnerships are solid and will be vital 
to assisting our servicemembers in their employment search. ESGR 
volunteers are also be a link statewide and can assist in the efforts 
by directing servicemembers and employers to the sources that will 
benefit them both.
    The Iowa ESGR team will continue to facilitate with our partners 
Employment Assistance Training Events statewide. We will also continue 
to participate and assist in the promotion of job fair activities 
through our Guard and Reserve contacts.
    The primary missions of Employer Support of the Guard and Reserves 
(ESGR) are to educate, provide consultation to, and assist with 
reemployment challenges for Iowa employers, National Guard members, and 
Reservists. The Employment Initiative Program (EIP) was added to our 
mission set in the fall of 2010 and is designed to facilitate 
employment opportunities for unemployed and underemployed 
servicemembers and their spouses. This program is an outgrowth of our 
ESGR Outreach Programs, corresponds with the current economic realities 
in our state, and is consistent with our President's New Veterans 
Employment Initiative.
    This past July, the Iowa National Guard's 2nd Brigade Combat Team 
recently returned home from a 1-year deployment to Afghanistan. As they 
were out processing from this deployment at Ft. McCoy, Wis., 2,356 of 
these Soldiers completed a survey regarding their employment status. 
721 Soldiers responded they considered themselves unemployed on their 
return to Iowa. According to the Civilian Employment Information (CEI) 
data collected from these same Soldiers prior to the deployment, 630 of 
them considered themselves unemployed. CEI data is entered into the 
Defense Manpower Data Center (DMDC) by the servicemembers and is only 
as accurate as the information they entered. We are able to request 
data through National ESGR regarding statistics on the ``not'' employed 
status of our servicemembers of all services.
    National ESGR has partnered with the Employer Partnership of the 
Armed Forces (EPO) under the EIP program. EPO specializes in 
identifying civilian employers that are seeking to hire servicemembers 
and their spouses. They also assist servicemembers and spouses in all 
phases of the job search process. This organization is one resource 
ESGR refers servicemembers and employers to in order to match job 
seekers and job providers for civilian employment positions.
    Iowa ESGR has also partnered with Iowa Workforce Development (IWD), 
offering free Employment Assistance Training (EAT) workshops to 
servicemembers and their spouses. These workshops are designed to teach 
job search skills to job seekers. Topics covered include the Transition 
Assistance Program (TAP), resume' writing, job interview skills 
training, and online job search techniques. Civilian human resources 
representatives volunteer to provide constructive critiques on prepared 
resumes and also provide practice interviews for participants with 
immediate feedback of their interview.
    Since September 2011, ESGR and IWD have offered employment events 
around the state in Waterloo, Des Moines, and Iowa City. These 
locations were selected based on the survey results acquired in July 
during Soldier out processing at Ft. McCoy. Unfortunately the Waterloo 
event was canceled due to a low number of RSVPs. Individuals interested 
in attending the Waterloo event alternatively scheduled individual 
sessions with the local Veterans Representative at IWD. The Des Moines 
event had 18 registrations with 9 actual attendees. Iowa City had 10 
registrations, with 7 individuals participating in the training. When 
compared to the survey results and the fact that more than 400 2nd 
Brigade Combat Team Soldiers expressed interest in receiving employment 
assistance while out processing at Fort McCoy, the rate of 
participation is much lower than expected. From our perspective 
potential reasons for the low participation could be that the 
employment events were scheduled too soon after their return home, 
Soldiers are not in a duty status and simply want a break from the 
military, knowledge and use of unemployment benefits, or they simply 
are not ready to think about finding a job.
    Iowa ESGR is working with Guard and Reserve units to promote not 
only the training events, but job fair opportunities throughout the 
state. ESGR volunteers have briefed the job search opportunities and 
training events during the Yellow Ribbon post-mobilization events 
(reintegration briefings and activities) and also during unit annual 
briefings. Information regarding upcoming employment events is 
consistently emailed to all interested individuals, including command 
and staff of the Guard and Reserves, Guard and Reserve members 
returning from deployments, and ESGR military outreach volunteers.
    The Iowa National Guard has worked closely with the National Guard 
Bureau to hire an individual to work one-on-one with unemployed Guard 
members as they search for employment. This individual will assist 
servicemembers on resume writing and job search resources. They will 
also build relationships with employers statewide to encourage the 
hiring of our qualified servicemembers. ESGR will also work closely 
with them, sharing resources, contacts, and strategies to build a 
productive employer network.
    ESGR has a long and successful history of helping Guard and Reserve 
servicemembers and their employers understand their rights and 
requirements under the Uniform Servicemembers Employment and Re-
Employment Rights Act (USERRA). Now, with the Employment Initiative 
Program and associated partnerships, we have the opportunity to assist 
servicemembers and employers connect more effectively and more often.

                                 <F-dash>
     Prepared Statement of Anthony Smithhart, Iowa State Director,
  Veterans' Employment and Training Service, U.S. Department of Labor

    Chairman Stutzman, Ranking Member Braley, and Members of the 
Committee:
    Thank you for the opportunity to testify before the Committee about 
the work we are doing at the Department of Labor (DOL or Department) to 
address the important issue of decreasing the unemployment rate for 
Veterans, National Guard, and Reservists. We also appreciate the 
opportunity to discuss the work we are doing here in Iowa. With over 
240,000 veterans living in the state, it is critical that we provide 
them with the services and support they need to find and obtain good 
jobs.
    My name is Tony Smithhart, and as the Iowa State Director for the 
Department of Labor's Veterans' Employment and Training Service (VETS), 
I am dedicated to helping our Veterans and returning Servicemembers 
achieve that goal.
    VETS proudly serves Veterans and transitioning Servicemembers by 
providing resources and expertise to assist and prepare them to obtain 
meaningful careers, maximize their employment opportunities and protect 
their employment rights. We do this through a variety of nationwide 
programs that are an integral part of Secretary Solis's vision of 
``Good Jobs for Everyone.''
    I would like to begin by briefly discussing some of those programs 
along with other initiatives that assist America's Veterans in getting 
to or back to work and then focus specifically on information for Iowa 
you requested in your invitation.

Jobs for Veterans State Grants Program

    The first program that I would like to highlight for you is the 
Jobs for Veterans State Grants (JVSG) Program. Under this grant 
program, the Department offers employment and training services to 
eligible Veterans by allocating funds to State Workforce Agencies in 
direct proportion to the number of Veterans seeking employment within 
their state.
    The Jobs for Veterans State Grants (JVSG) program funds two 
occupations, the Disabled Veterans Outreach Program specialist (DVOP) 
and the Local Veterans Employment Representatives (LVER). DVOP 
specialists provide outreach services, and intensive employment 
assistance to meet the employment needs of eligible Veterans. LVER 
staff conducts outreach to employers and engages in advocacy efforts 
with hiring executives to increase employment opportunities for 
Veterans, encourages the hiring of disabled Veterans, and generally 
assists Veterans to gain and retain employment.
    Last year, the JVSG provided services to nearly 589,000 Veterans, 
and 201,000 Veterans found jobs.

Homeless Veterans' Reintegration Program

    To meet the needs of homeless Veterans and help reintegrate them 
into the workforce VETS administers the Homeless Veterans' 
Reintegration Program (HVRP). Through H.R.VP, the Department provides 
competitive grants to state and local workforce investment boards, 
state agencies, local public agencies, and private non-profit 
organizations, including faith-based organizations and neighborhood 
partnerships. HVRP grantees provide an array of services utilizing a 
holistic case management approach that directly assists homeless 
Veterans and provides training services to help them to successfully 
transition into the labor force.
    In Program Year (PY) 2009, over 14,000 homeless Veterans 
participated in this program through 96 grants, and 8,470 were placed 
into employment. Data for PY 2010 is not yet available, as figures for 
the 4th quarter are still being verified. Here in Iowa, the HVRP has 
touched many lives and helped hundreds of homeless Veterans because of 
grants to programs such as the Goodwill Industries of the Heartland and 
Shelter House Community Shelter & Transition Services.

Veterans' Workforce Investment Program

    Yet another way the Department is working to help Veterans get back 
to work is through the Veterans' Workforce Investment Program (VWIP). 
Through VWIP, the Department awards competitive grants geared toward 
focused training, re-training and employment opportunities for recently 
separated Veterans, Veterans with service-connected disabilities, 
Veterans with significant barriers to employment and Veterans who 
served on active duty during expeditions or campaigns for which 
specific badges were awarded. These grants are awarded to meet the 
needs of employers for qualified workers in high demand industries, 
particularly those occupations requiring a license or certification. 
These grants also promote the integration of public, private, and 
philanthropic organizations with the workforce system to create synergy 
and encourage innovative strategies to serve our Veterans better.
    In FY 2009, VWIP was refocused to provide training and employment 
services in green energy occupations as envisioned in the Green Jobs 
Act of 2007. There are currently 22 grants serving 4,600 Veterans.

Transition Assistance Program

    Our primary program for assisting individuals with their transition 
from the military to the civilian workforce is the Transition 
Assistance Program (TAP). TAP is an interagency program delivered via a 
partnership involving the Department of Defense, DOL VETS, the 
Department of Veterans Affairs, and the Department of Homeland 
Security. VETS provides an employment workshop that is a comprehensive 
two and a half day program during which participants are provided 
relevant skills and information, such as job search techniques, career 
decision-making processes, and current labor market conditions.
    Currently, VETS uses a mix of contractors, VETS Federal staff, 
DVOPs, and LVERs as TAP facilitators. Starting in late 2012, VETS will 
transition to all skilled contract facilitators.
    As you know, VETS is currently in the process of redesigning and 
transforming the TAP employment workshop. We are creating experiential, 
effective, and enduring solutions for a successful transition from 
military to civilian life and employment. The new TAP will be based on 
established best practices in career transition.
    Last year, nearly 130,000 transitioning Servicemembers and spouses 
attended a TAP employment workshop given at one of 272 locations world-
wide.

Employer Partnerships

    VETS is also implementing a new approach to employer outreach that 
involves pilot programs and partnerships with the private sector, 
including the U.S. Chamber of Commerce and the Society for Human 
Resource Management (SHRM). These partnerships are giving us much 
broader access to employers so that we can communicate the value of 
hiring a Veteran and how to access this extraordinary source of talent. 
It also allows us to educate employers about the unique skills Veterans 
bring with them based on their military experience. Connecting the 
talent pool with the many companies looking to hire Veterans allows for 
a more efficient hiring process for many Veterans and employers.
    The Chamber is working to hold 100 hiring fairs exclusively for 
Veterans, transitioning Servicemembers and their spouses. In the 
partnership, the U.S. Chamber and its affiliates focus primarily on 
securing the participation of employers while the VETS team focuses on 
obtaining participation by Veterans, transitioning Servicemembers and 
their spouses.
    In fact, VETS is participating in our State-wide 2011 ``Hiring Our 
Heroes'' Job Fair in Des Moines, Iowa on November 8th, 2011. The event 
will be held at the Hy-Vee Hall (Hall ``C''), 730 Third Street, Des 
Moines, Iowa, 50309 from 10:00AM-4:00PM and is being put on by the 
Greater Des Moines Partnership, and the U.S. Chamber of Commerce along 
with the Iowa Works, the Employer Support of the Guard and Reserve 
(ESGR), Des Moines Area Community College, and the Military Services.
    VETS is working with SHRM to identify opportunities for VETS state 
managers to meet with local SHRM chapters to connect Veterans seeking 
employment with companies who are hiring. For VETS this is an effective 
and efficient way to connect employers and Veterans. We are also 
working with SHRM in the development of an H.R. Toolkit that will 
provide employers with the methods and procedures to establish a 
Veteran hiring program and to hire Veterans.

Iowa Specific Information

    In your letter of invitation, you requested certain information 
about Veterans in Iowa. While some specific data is unavailable, we 
have nevertheless been certain to provide the most current information 
available. As you know, Iowa operates a Public Labor Exchange primarily 
funded by the U.S. Department of Labor to assist all job seekers with 
their employment needs. While it is available to all populations, 
Veterans are given priority of service. In Iowa, the Public Labor 
Exchange is known as the Iowa Workforce Development (IWD). The services 
and assistance offered at IWD range from employment preparation and 
comprehensive employment placement services, to intensive services 
through a case management approach for Veterans with special needs.

Level of Education of Veterans Seeking Employment Assistance

    Over the past year, 19,687 Veterans have received services through 
IWD. Of the total population of Veterans served through the public 
labor exchange, 1074 or 5.5 percent reported less than a high school 
diploma while 9,000 or 45.7 percent have a high school degree or a GED. 
The total number of Veterans reporting achievement of a post-high 
school degree or certification is 6144, or 31.2 percent. (See table 
below.)

------------------------------------------------------------------------
                     Data Element                         Iowa   Percent
------------------------------------------------------------------------
Total Number of Vets, Eligibles and Transitioning        19,687
 Servicemembers
------------------------------------------------------------------------
Total Number of Vets, Eligibles and Transitioning         1,074     5.5%
 Servicemembers who were not HS Graduates
------------------------------------------------------------------------
Total Number of Vets Eligibles and Transitioning          9,000      46%
 Servicemembers who had a HS degree or GED
------------------------------------------------------------------------
Total Number of Vets, Eligi8bles and Transitioning        6,144      31%
 Servicemembers who had a Post-Secondary degree or are
 Certified
------------------------------------------------------------------------


    Source: U.S. Department of Labor, Employment and Training 
Administration Form ETA 9002 A: ``Services to Participants'' July 1, 
2010 through June 30, 2011. U.S. Department of Labor, and Employment 
and Training Administration Form ETA 9002 D Services to Participants, 
April 1, 2010 through March 31, 2011.
    Education level is not a required field when registering with the 
One-Stop Career Center system; therefore, the breakdown by education 
level does equal the total number of Veterans served.

Average Placement Salary by Level of Education for Veterans.

    In Iowa, the 6 month Average Earnings for veterans are; $15, 346 or 
$30,692 per annum. The principle source of information for this data 
element is the U.S. Department of Labor's, Employment and Training 
Administration from the ETA 9002, Services to Participants for Program 
Year Period July 1, 2010 through June 30, 2011. While specific 
placement salary data by education level are not available, the ETA 
9002, Performance Outcomes for Veterans, Eligible Persons and 
Transitioning Servicemembers does provide Average Earnings data.

Length of Unemployment for Veterans by Education Level

    The Current Population Survey provides national data about the 
employment status of the civilian non-institutional population by 
educational attainment, age, sex, race, and Hispanic or Latino and Non-
Hispanic ethnicity. The same source provides data for unemployed 
persons by duration of unemployment, educational attainment, sex, and 
age as an annual average for the general population. However, data for 
length of unemployment by education level for Veterans as a separate 
population is not available.

Rate of Unemployment for Veterans by Education Level

    In terms of unemployment rates for the general population, the 
Local Area Unemployment Statistics (LAUS) reports a 6.1 percent rate 
for Iowa in 2010. Comparatively, the Current Population Survey (CPS), 
collected by the Census Bureau for the Bureau of Labor Statistics, 
shows that the unemployment rate for Veterans was 6.4 percent in Iowa 
in 2010. Unemployment rate data by education level by state is not 
available. (See table below.)


------------------------------------------------------------------------
                         Data Element                             Iowa
------------------------------------------------------------------------
Unemployment Rates:                                                6.1%
------------------------------------------------------------------------
Calendar Year 2010 (LAUS) General Population                       6.1%
------------------------------------------------------------------------
Calendar Year 2010 (CPS)-Veterans                                  6.4%
------------------------------------------------------------------------


    Source: U.S. Department of Labor, Bureau of Labor Statistics

Number of Uniformed Services Employment and Reemployment Rights Act 
        (USERRA) Complaints Filed

    VETS is honored to serve our Nation's Veterans. One of the agency's 
top priorities is to protect the employment rights of servicemembers 
when called to serve on active duty in the U.S. Armed Forces. The goal 
of the USERRA is to ensure that no member or prospective member of the 
U.S. Armed forces endures any disadvantage or discrimination in 
employment because of their affiliation with the military, and to 
secure the reemployment rights of members of the military after active 
duty service.
    VETS works closely with DoD's Office of the Assistant Secretary for 
Reserve Affairs' Employer Support of the Guard and Reserve (ESGR) to 
ensure that servicemembers are informed on their USERRA rights before 
and after they are mobilized. We conduct continuous USERRA outreach to 
educate and inform servicemembers and employers of their rights and 
responsibilities under the law.
    The use of the National Guard and Reserves has increased 
dramatically in recent years, with more called to active duty than any 
other time since the Korean War. This has increased the complexity of 
issues resulting from the challenges faced by servicemembers and their 
families due to lengthier and multiple deployments. This is true for 
all servicemembers but because many National Guard and Reserve Units, 
in particular, contend with civilian employment issues, the claims 
activity post 9-11 has increased dramatically nationwide. Employers 
face equal hardships in the reintegration of servicemembers into the 
labor force as they deal with lengthy and multiple absences.
    Your invitation asked for the number of USERRA complaints filed in 
Iowa. Below, is the breakdown of complaints filed within the last 5 
years. Despite the increase nationally, the number of complaints have 
decreased in Iowa over this time period.


------------------------------------------------------------------------
                         Data Element                             Iowa
------------------------------------------------------------------------
USERRA Complaints Filed:
------------------------------------------------------------------------
Federal Fiscal Year 2007                                             38
------------------------------------------------------------------------
Federal Fiscal Year 2008                                             39
------------------------------------------------------------------------
Federal Fiscal Year 2009                                             34
------------------------------------------------------------------------
Federal Fiscal Year 2010                                             24
------------------------------------------------------------------------
Federal Fiscal Year 2011                                             19
------------------------------------------------------------------------


    Source: USDOL/VETS Uniformed Services Employment and Reemployment 
Rights Act Information Management System

Conclusion:

    Thank you again for allowing me to testify today and for your 
tireless support and commitment to our Nations Veterans. DOL and VETS 
look forward to continuing to work with you and your staff on Veterans' 
employment initiatives. I look forward to responding to your questions.

                                 <F-dash>
            Prepared Statement of Teresa Wahlert, Director,
               Iowa Workforce Development, Des Moines, IA
         Strengthening Veteran Employment Opportunities in Iowa

    Throughout the country countless men and women have dedicated their 
lives and made extreme sacrifices for the safety of everyone. Hundreds 
of thousands of Americans have deployed to serve our great country, yet 
when they come home a fundamental step in returning to a civilian life 
is difficult to obtain: employment. Iowa is one of the few states 
without an active military installation; however our National Guard and 
Reservists have been deployed to Iraq, Afghanistan and other world 
locations in record numbers, often for multiple deployments.
    Iowa receives a small grant for the veterans program within our 16 
one-stop integrated centers. As such, we have developed creative 
alternatives to ensure our entire workforce staff members are trained 
in providing priority of service activities for Iowa's veterans. This 
allows our targeted veteran staff members to focus on active case 
management for veterans in need. This level of case management has 
developed new meaning with the record number of returning 
servicemembers over the last few years. Recently, Iowa welcomed home 
nearly 3,000 servicemembers from Afghanistan follow a long deployment. 
While this should be a time for celebration for our returning heroes, 
the Adjutant General of the Iowa National Guard, Major General Tim Orr, 
recently noted that nearly 25 percent of these individuals would be 
seeking full-time employment. Unfortunately, our servicemen and women 
have faced hiring difficulties and problems with USERRA compliance upon 
their recent return. Although Federal regulations require veterans be 
returned to their former positions, frequently this is not the case. 
Further promotion of USERRA requirements is needed to ensure our 
veterans are treated appropriately.
    Iowa is working to develop a new service delivery model that 
benefits all job seekers, including veterans. The integration service 
delivery model works to identify the needs and barriers of job seekers 
early on to ensure the client receives all of the benefits of programs 
within the workforce system. This allows staff members to quickly 
identify veterans to ensure their immediate connection to a veteran 
specialist. A significant barrier for individuals transitioning to 
civilian employment is translating the military skill set to civilian 
skills. It's difficult for the veteran who is so entrenched in military 
language to develop the talking points to sell his/her skill sets as 
valuable within the civilian workforce. Iowa's veteran specialists work 
diligently on a daily basis to assist with this process and to educate 
employers on the benefits of hiring veterans.
    Although Iowa is a smaller state, time and time again we've been 
recognized for our outstanding efforts in providing services to 
veterans. Our staff developed a veteran's services guide that details 
programs and services for veterans in a format that is easy to navigate 
and understand. Additionally, the department instituted a peer-to-peer 
case review system on a quarterly basis to provide ongoing training and 
develop best practices for all program specialists to use throughout 
the state. Both of these initiatives have been replicated by states 
throughout the country.
    On July 27th, Iowa Workforce Development announced a first in the 
Nation partnership with the Iowa National Guard. The state's workforce 
access point technology is being introduced onsite at the 43 National 
Guard Armories across the state. This is the same virtual service 
deployed across Iowa in hundreds of new sites. Veterans will have 
immediate access to job search technology, resume development software, 
labor market information, veteran specific resources, unemployment 
information and access to one-stop workforce specialists via live chat 
or a toll free number from 8:00AM to 8:00PM Monday through Friday and 
10:00AM to 2:00PM on Saturdays all from an environment where the 
veterans currently seek a variety of services and contacts.
    Although Iowa is a small state with a limited grant, we've taken 
innovative approaches to maximize the funding for the entire state. 
Iowa focuses its staffing dollars towards the DVOP case management side 
and trains everyone on our business outreach teams to educate employers 
and promote the hiring of veterans. Our entire workforce team works to 
educate employers on the benefits of hiring veterans. This provides our 
state with a larger portion of resources to direct at intensive case 
management activities. This process has been recognized by other states 
such as Oregon, Nevada, Connecticut and others as a best practice for 
ensuring veterans receive dedicated services. Every year, states are 
allowed to use 1 percent of their veteran services grant as incentive 
awards to the regional one-stop centers. Iowa Workforce Development 
uses this opportunity to reward our specialists who go above and beyond 
in service delivery and develop creative means for reaching veterans in 
the community. The inventive awards are used in a variety of ways 
including providing bedding for local veteran homeless shelters, 
purchasing gas cards to ensure the veteran has the means to attend an 
interview, sponsoring honor flights and more. In 2010, a DVOP 
specialist received the distinguished national Mark Sanders Award for 
outstanding service to disabled veterans in Iowa.
    While Iowa and other states have taken creative steps to assist 
veterans, more needs to be done to ensure that veterans find 
successful, sustaining employment opportunities that meet their unique 
needs and allow each individual to utilize the skills developed during 
their selfless service to the country.

                                 <F-dash>
     Prepared Statement of Rear Admiral T. L. McCreary, USN (Ret.),
                        President, Military.com

    Chairman Stutzman, Ranking Member Braley, and Members of the 
Subcommittee, thank you for your focus on the critical issue of veteran 
employment.
    As a 27 year veteran of the Navy and the current President of 
Military.com, I have experienced the issue of veteran employment from 
both sides. As such, I would like to share with you what our 
organization is doing to help veterans find career opportunities as 
well as our belief that aligning government and the private sector will 
best connect our servicemembers with jobs.
    Post-WWII our country experienced what can be called the ``Golden 
Age of Higher Education.'' Armed with their GI Bill Benefits, 4.4 
million servicemembers went to college to build the foundation for a 
better life.
    While today's veterans and servicemembers in transition are still 
pursuing their educational dreams with the enhanced GI Bill, a weakened 
economy makes it tougher to find excellent job opportunities. There is 
a disconnect with the private sector on the transportability of 
military skills and our veterans are finding it more difficult than 
ever to translate their total military experience into a civilian 
career.
    The numbers are disturbing. The unemployment rate for all veterans 
remains stubbornly at 9 percent, the unemployment rate for post 9/11 
veterans is roughly 11 percent--higher than the national average. Young 
male veterans between the ages of 18 to 24 had an unemployment rate of 
21.9 percent% in 2010 and female veterans face unemployment at a rate 
of 13.5 percent, versus 8.4 percent for non-veteran women.
    Many Americans enter the military because of the opportunity to 
acquire marketable skills along with the ability for advanced degrees. 
Yet when the time comes to transition today, they are not finding as 
much opportunity in today's economy. Worse yet, the connection between 
unemployment and homelessness is irrefutable. Right now the VA 
estimates there are over 100,000 veterans who have no home.
    The reality is, as we continue to reduce our troop end strength, 
more veterans will be looking for civilian employment while job growth 
has not accelerated as much as hoped.
    Competition will be stiff and we already know that unemployment is 
higher for veterans than for civilians.
    Military culture, language and job skills are not easily translated 
to the civilian world. Potential employers have very little 
understanding of the diverse jobs and skill sets one can learn in the 
military. Additionally, our veterans are coming out of the service with 
little experience in writing a civilian resume and no exposure to 
private sector business culture or language.
    There is no doubt that given the service these veterans have 
provided us during wartime, we owe them the best support possible in 
their post-service life.
    So how do we do that?
    First, programs that allow those who have served in uniform and who 
desire to continue their government service in a civilian capacity 
should be embraced. There is great value in the government competing 
for these outstanding men and women.
    But the majority of transitioning servicemembers do look to the 
private sector for employment so focus should be put on public, private 
efforts to land veterans jobs.
    So to assist, military personnel need more exposure to the private 
sector before they leave the service. That exposure needs to happen in 
the form of enhanced Transition Assistance Programs (TAP), where the 
focus needs to be on the veteran getting ahead rather than just getting 
out. The employment curriculum of TAP needs to be taught by human 
resource professionals from the private sector with some military 
knowledge so instructors can provide the best chance for the military 
member to find the best opportunity on the outside. It must include 
skill-specific resume writing services, information on private sector 
business culture and hands-on training on how to use all available 
private sector resources so veterans can get in front of the employers 
and compete in the human resource networks that exist in the private 
sector. And it must teach networking and where to find those who can 
help and give our veterans insight into the marketplace.
    Post-service employment preparation should be focused on how to 
enter the civilian job market rather than trying to create stand-alone 
programs run by the government. The vast majority of companies in the 
private sector have very good and generally very efficient ways to find 
good talent. The key must be to help the veterans get into that system, 
be identified as veterans . . . and compete.
    Second, if government wants a program they can sink their teeth 
into, it should fund training for those in the field of human resources 
on how to understand military skill sets and how those skills apply to 
the civilian world. This training needs to include explanations for 
primary, secondary and tertiary duties an individual may have had in 
the service. The Department of Labor has a basic program around this 
but it could be greatly enhanced.
    Third, a better understanding of how military certifications 
translate to civilian professional certifications should be addressed 
with all state governments.
    My Military.com director of community outreach visited a number of 
military installations overseas in February of this year. During his 
visit to Marine Corps Base Camp Butler in Okinawa Japan, he met a Navy 
Hospital Corpsman Second Class who had recently returned from his 
second tour in Afghanistan. The Navy Corpsman earned a Bronze Star with 
a Combat ``V'' for his heroic efforts in performing a tracheotomy on a 
wounded Marine during a firefight engagement with insurgents. This Navy 
Corpsman has the exceptional skills and abilities to perform such a 
task under extreme hazardous conditions and do it effectively, yet does 
not warrant becoming a qualified emergency medical technician in the 
civilian community unless he goes through a full training and 
certification program where he probably is more qualified than the 
instructor.
    It astounds me that a soldier, sailor, airman, Marine or 
Coastguardsman can perform surgery on the battlefield but not be 
certified an EMT in the civilian world without starting from scratch. 
An all-out effort between VA, Labor and DoD with the 50 states could 
probably develop a program of what knowledge, skills and abilities 
would be accepted as certifications within all states with a very short 
testing period.
    Finally, leveraging the expertise of private companies like 
Monster.com and Military.com is crucial to sustaining any successful, 
long-term veteran employment efforts.
    Military.com knows the private sector; with our parent company, 
Monster.com we can and do specialize in harnessing the best technology 
along with the most effective methods to connect our servicemembers 
with employers. And while most employers don't tell us how many vets 
they hire, we do know they continually search resumes with veteran 
status and continually advertise their positions on Monster and 
Military.com
    While the government assists servicemembers with getting out 
through the Transition Assistance Program, we at Monster.com and 
Military.com help them get ahead by tapping into our large data base of 
jobs and providing the guidance needed to enter the civilian job world.
    Military.com was founded in 1999 by a young Navy reservist to 
revolutionize the way our 30 million Americans with military affinity 
stay connected and informed.
    Today, Military.com is the largest military and veteran membership 
organization with more than 10 million members and we're one of the 
largest news destination sites on the Internet. Our free membership 
connects servicemembers, military families and veterans to each other 
and to all the benefits of service at all stages in their lives -- 
government benefits, resources and career services, education 
information and scholarships, discounts, news and discussion forums to 
share the great stories and challenges inherent in military life, and 
more.
    In 2004, Military.com joined forces with Monster Worldwide to 
accelerate our growth and change the playing field for career and 
educational opportunities for active duty personnel, as well as Guard 
and reservists, veterans and military spouses. We work hard every day 
to serve those who serve our country and we're committed to helping our 
members find work and enter into career paths that will compliment and 
build on the skills they acquired in the military.
    We do this both online and offline.
    Online, we offer a comprehensive offering of services, resources 
and information to support every stage of a military career, from 
recruitment to boot camp to promotions, retirement, education and 
second careers.
    Military.com created a veteran career center using technology to 
successfully deliver a personalized experience with a variety of 
interactive tools and resources. We offer the largest veteran job board 
in the world featuring military-friendly employers as well as hundreds 
of thousands of job postings available through our Monster.com 
database.
    We also offer personalized email alerts for new postings that match 
a veteran's resume and job interests, as well as resume writing tools, 
education and training information, mentoring through our Veteran 
Career Network, and electronic newsletters with news and employer 
information.
    To help veterans begin their new career search, we developed our 
Military Skills Translator. We use the Department of Labor's online 
resource known as ``O-Net,'' or Occupational Data Network as a baseline 
to translate current and older military occupational specialty codes 
into civilian occupations
    Then Military.com is taking it one step further. We present the 
veteran with equivalent jobs currently posted on the Monster job board, 
including those posted by thousands of military employers specifically 
looking for veterans. The veteran can immediately apply to one of these 
jobs from our site or review the job postings and learn what specific 
experiences, skills, education, and training employers are seeking for 
this type of position. This information can help the job seeker better 
``civilianize'' their military experience on their resume and best 
communicate the skill, knowledge, and abilities they acquired while in 
service. Over the last year, we had over 250,000 separate individuals 
use our translator an average of 4-5 times per person.
    Through the Military Skills Translator, not only are veterans 
empowered to apply to currently available jobs, they can also see 
members of our Military.com's Veteran Career Network who have indicated 
they held that same Military Occupational Specialty.
    One of our fastest growing services that is still in beta form is 
this mentor network that connects veterans seeking new careers with 
employed veterans as well as military supporters. Military.com members 
who volunteer for this feature create a profile containing details 
about their military experience, professional interests, and their 
current job position and employer.
    Veterans using this feature can find a career network mentor by 
company, government agency, career field, industry or geographic 
location. Once the veteran job seeker has identified someone with whom 
they would like to network, he or she can contact a mentor directly 
through our secure Military.com email tool.
    Since the implementation of our Veteran Career Network in 2007, 
over one million Military.com members have signed on to network with 
other veterans and help transitioning servicemembers jumpstart their 
civilian careers.
    Our members also access financial information and guidance. Our 
Finance Channel drew over 450,000 views in March 2011 because of the 
comprehensive information VA home loans and our relocation guide which 
helps military families through their mandatory moves.
    For example, in March of 2011 alone we had 3 million views on our 
Benefits and Education Channel which includes information on Tricare, 
GI Bill, VA health care, survivor benefits and information on PTSD 
resources and support.
    We keep our members in touch with the latest information about 
their benefits and interests with our email newsletters, of which 35 
million are sent each month to our members who subscribe to them. Our 
most popular newsletters are the Veterans Insider with over 8 million 
subscribers, our Careers newsletters with over 800,000 subscribers and 
our Active Duty Insider with over 4 million subscribers. These 
newsletters offer tailored content and feature relevant information and 
resource links for our audience.
    Offline, we actively engage with the communities we serve through 
in person events.
    Currently we host, in conjunction with our non-profit partner, the 
Non-Commissioned Officers Association, over 40 career expos a year.
    In 2010, over 15,000 members attended our 33 career fair events 
across the country. Since January of this year, we have held 11 career 
fair events, attended by more than 3500 veterans and transitioning 
servicemembers. We have also recently begun hosting Veteran Power 
Seeker Workshops in advance of our career fairs to help attendees write 
resumes, acquire interviewing and networking skills and research 
employers so they are prepared to most successfully engage with 
employers at the event.
    These career fairs are important because it gives us one to one 
interaction with both employers and transitioning servicemembers. Here 
we are able to walk job seekers through the interview process, review 
resumes and counsel them about the many opportunities outside of the 
government that they may not have known they were qualified for. 
Conversely we get the chance to meet with employers and ``de-code'' the 
military skills or vernacular they are seeing on resumes and point out 
what skills sets will best fit their needs.
    If you question the ability of the private sector to embrace and 
assist our veterans in their job search, look no further than 
Military.com and the solid relationships we have created between our 
servicemembers, veterans and employers.
    In conclusion, we no longer have finite wars with treaties being 
signed on the deck of a battleship. Today's changing global environment 
means that any time our military can be called to action, tapped for 
humanitarian assistance or used to quell instability around the globe.
    As such, we have a much longer-term obligation to understand 
veterans and the employment they seek. Rather than the ``home from 
war'' mentality of previous generations, we now have to see veteran's 
employment as a rolling responsibility that will remain a permanent 
fixture on our national landscape.
    Just as the Post WWII generation enjoyed the ``Golden Age of 
Education'' we can and should see this as our opportunity to create the 
``Golden Age of Employment'' for those who have served our Nation so 
proudly. We are fortunate enough here in our country to have an all-
volunteer force, one that emerges from, and ultimately goes back into 
the civilian population.
    It stands to reason that a crucial component in ensuring jobs for 
those veterans who return to civilian life is leveraging the expertise 
and involvement of the private sector.
    Madam Chairwoman and Members of the Subcommittee, this concludes my 
statement. I would be pleased to answer any questions you may have.

                                 <F-dash>
     Prepared Statement of Jennifer J. Suchan, Assistant Registrar
and Coordinator, Veterans Student Services, University of Northern Iowa

                            October 21, 2011

The Honorable Marlin Stutzman, Chair
House Veterans' Affairs Subcommittee on Economic Opportunity
The Honorable Bruce Braley, Ranking Member
House Veterans' Affairs Subcommittee on Economic Opportunity

Dear Congressman Stutsman and Congressman Braley:

    The University of Northern Iowa commends the Committee for its 
commitment to economic opportunity for returning veterans. Education is 
directly related to an individual's economic opportunity. On behalf of 
the University, I would like to share with you our commitment to 
veterans, as well as provide for your consideration some 
recommendations to further assist returning veterans.
    The University of Northern Iowa established the Veterans Student 
Services Committee in fall 2009. The 21 members include students, 
faculty and staff, officers with the ROTC program, and members of the 
Cedar Valley community. Preference for appointments are given to 
individuals who are veterans, who have particular research or content 
knowledge about veterans' matters, or who have professional 
responsibilities related to military service.
    In the 2 years since its creation, the Committee has:

    <bullet>  Conducted a survey to determine the needs and desires of 
student veterans
    <bullet>  Launched the UNI Student Veterans Association
    <bullet>  Initiated participation in the Yellow Ribbon Program
    <bullet>  Initiated campus-wide recognition activities for Veterans 
Day

    In July 2011, I was appointed Coordinator, Veterans Student 
Services (VSSC). Among my duties is serving as Chair of the Veteran 
Student Services Committee. The following goals have been set for the 
2011-12 academic year:

    <bullet>  Conduct a faculty and staff awareness survey
    <bullet>  Create a university veterans-specific Web site
    <bullet>  Establish a faculty/staff-to-student veteran mentoring 
program
    <bullet>  Launch UNI VETS (UNI Veterans Educating Tomorrow's 
Students)
    <bullet>  Add elements into the existing orientation programming to 
meet the specific needs of veterans

    The VSSC is comprised of four Subcommittees: (1) Communications and 
Outreach; (2) Education and Assessment; (3) Transitions and Retention; 
and (4) UNI Student Veterans Association. Each Subcommittee has a 
number of goals and initiatives that they work to accomplish. Today's 
hearing sheds light on some additional goals that could be pursued: A 
job fair and on-campus interviews specific to student veterans; resume-
critiquing and mock interviews to aid student veterans in translating 
their military skills, training, and experience in civilian terms; and 
encouragement of student-veterans to partake in the many internship 
opportunities that are available.
    UNI is also proud to announce that it was included in the 2012 
Military Friendly Schools List published by G.I. Jobs magazine. The 
list recognizes the top 15 percent of colleges, universities, and trade 
schools that are supporting the educational pursuits of veterans. 
Criteria for inclusion in the Military Friendly Schools List include a 
strong commitment to recruiting, retaining, and providing financial, 
academic, and social services to student veterans.

Recommendations:

    We are committed at all levels to supporting the transition from 
``boots to books,'' and as a result, support measures that contribute 
to a more seamless transition from military to civilian life. Colleges 
and universities should be urged to provide an office or staff person 
to serve as coordinator for veterans services and to expand the 
availability of training on veterans' needs and issues for campus 
officials, faculty and staff.
    We would be pleased to meet with you and Members of the Committee 
to discuss further these comments, as well as to respond to questions 
and provide additional information.
            Sincerely,

                                                 Jennifer J. Suchan
                               Assistant Registrar and Coordinator,
                                       Veterans Student Servicesq02

                                 <F-dash>
                   MATERIAL SUBMITTED FOR THE RECORD
                      QUESTION FOR THE RECORD FROM
                   CHAIRMAN STUTZMAN TO MR. SMITHHART

    Mr. Stutzman. How many veteran job placements did Iowa State 
Workforce complete in the last year, roughly?
    Mr. Smithhart. For the period ending on December 31, 2011, the 
number of Veterans/eligible persons that were reported as entered 
employment in Iowa was 6,209.

                                 <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
